1a
APPENDIX A
Supreme Court of North Carolina
State of North Carolina
v.
George Lee Nobles
No. 34PA14-2
Filed February 28, 2020
On discretionary review pursuant to N.C.G.S. §
7A-31 of a unanimous decision of the Court of Appeals, 818 S.E.2d 129 (N.C. Ct. App. 2018), determining no error in part and remanding in part a
judgment entered on 15 April 2016 by Judge Bradley
B. Letts in Superior Court, Jackson County. Heard
in the Supreme Court on 4 November 2019.
Joshua H. Stein, Attorney General, by Amy Kunstling Irene, Special Deputy Attorney General, for
the State-appellee.Glenn Gerding, Appellate Defender, by Anne M. Gomez, Assistant Appellate Defender, for defendant-appellant.
DAVIS, Justice.
In this case, we must determine whether defendant has sufficiently demonstrated that he qualifies
as an “Indian” 1 under the federal Indian Major
Crimes Act (IMCA) such that he was not subject to
the jurisdiction of North Carolina’s courts. Because
we conclude that defendant failed to demonstrate
that he is an Indian for purposes of the IMCA, we
affirm the decision of the Court of Appeals.
Throughout this opinion, we use the term “Indian” to comport
with the terminology contained in the Indian Major Crimes
Act.
1

2a
Factual and Procedural Background
On 30 September 2012, Barbara Preidt was
robbed at gunpoint and fatally shot outside of a Fairfield Inn in Jackson County. The crime took place
within the Qualla Boundary—land that is held in
trust by the United States for the Eastern Band of
Cherokee Indians (EBCI).
After an investigation by the Cherokee Indian Police Department, defendant, Dwayne Edward
Swayney, and Ashlyn Carothers were arrested for
the robbery and murder on 30 November 2012. Because Swayney and Carothers were enrolled members of the EBCI and of the Cherokee Nation of Oklahoma, respectively, they were brought before an
EBCI tribal magistrate for indictment proceedings.
Tribal, state, and federal authorities, however,
agreed that defendant should be prosecuted by the
State of North Carolina given that he was not present in the EBCI enrollment records. Accordingly,
defendant was brought before a Jackson County
magistrate and then charged in Jackson County
with first-degree murder, robbery with a dangerous
weapon, and two counts of possession of a firearm by
a felon.
On 15 April 2013, defendant moved to dismiss the
charges against him for lack of subject matter jurisdiction, arguing that because he was an Indian he
could only be tried in federal court pursuant to the
IMCA. The IMCA provides, in pertinent part, that
“[a]ny Indian” who commits an enumerated major
crime in “Indian country” is subject to “the exclusive
jurisdiction of the United States.” 18 U.S.C. §
1153(a) (2012).
The trial court held a pre-trial hearing on defend-

3a
ant’s motion to dismiss on 9 August 2013. The parties stipulated that defendant was born in 1976 in
Florida to Donna Lorraine Smith Crowe, an enrolled
member of the EBCI. The parties also stipulated
that although defendant himself is not an enrolled
member of the EBCI, he “would be [classified as] a
first descendant” due to his mother’s status.
At the hearing, the trial court received testimony
from Kathie McCoy, an employee at the EBCI Office
of Tribal Enrollment. McCoy testified that while defendant is neither currently enrolled nor classified as
a first descendant in the EBCI database, he was
nevertheless “eligible to be designated as a [f]irst
[d]escendant” because his mother was an enrolled
member of the EBCI.
Annette Tarnawsky, the Attorney General for the
EBCI, also provided testimony explaining that while
first descendants are not entitled to the full range of
tribal affiliation benefits that enrolled members enjoy, first descendants are eligible for some special
benefits not available to persons lacking any affiliation with the tribe. These benefits include certain
property rights (such as the right to inherit land
from enrolled members by valid will and to rent
dwellings on tribal land), health care benefits (eligibility to receive free care at the Cherokee Indian
Hospital), employment benefits (a limited hiring
preference for EBCI employment), and education
benefits (access to financial assistance for higher education and adult education services). Tarnawsky
also testified that the list of benefits available only to
enrolled EBCI members includes the right to hunt
and fish on tribal lands, the ability to vote in tribal
elections, and the right to hold tribal office.

4a
The State also presented evidence that defendant
had been incarcerated in Florida from 1993 until
2011 and that his pre-sentence report in Florida
listed his race and sex as “W/M.” When defendant
was released from Florida’s custody in 2011, he requested that his probation be transferred to North
Carolina and listed his race as “white” on his Application for Interstate Compact Transfer.
Defendant’s probation officers, Christian Clemmer
and Olivia Ammons, testified that in 2011, defendant began living with family members at an address
near the Qualla Boundary and working at a fast food
restaurant that was also located within the Boundary. For the next fourteen months, defendant lived at
various addresses on or near the Qualla Boundary
until his arrest on 30 November 2012. Defendant
never represented to either of his probation officers
that he was an Indian. On a mandatory substance
abuse screening form completed by Ammons on 7
May 2012, defendant’s race was listed as “white.”
Defendant’s mother also testified at the hearing,
stating that she is an enrolled EBCI member but
that defendant’s father was white and not affiliated
with any tribe. She testified that defendant lived on
or near the Qualla Boundary for much of his childhood and that she had enrolled defendant in both the
Cherokee tribal school system and the Swain County
school system. On one Bureau of Indian Affairs
(BIA) student enrollment application, she listed defendant’s “Degree Indian” as “none.” On two other
BIA student enrollment applications, however, she
listed defendant’s “Tribal Affiliation” as “Cherokee.”
As a child, defendant received treatment at the
Swain County Hospital for injuries suffered in a car

5a
accident, and the EBCI paid for the portion of his
medical expenses not covered by health insurance.
An employee of Cherokee Indian Hospital, Vickie
Jenkins, testified that defendant received care at the
hospital on five occasions between 1985 and 1990.
The hospital serves only enrolled members of the
EBCI and first descendants, both of whom receive
medical services at no cost. Defendant’s hospital records indicated that he was of EBCI descent and
identified him as an “Indian nontribal member.”
After hearing all the evidence, the trial court entered an order on 26 November 2013 denying defendant’s motion to dismiss based on its determination that defendant was not an Indian within the
meaning of the IMCA. The trial court’s order contained hundreds of detailed findings of fact. On 31
January 2014, defendant filed a petition for writ of
certiorari with this Court seeking review of the trial
court’s order. The petition was denied on 11 June
2014.
On 14 March 2016, defendant renewed his motion
to dismiss the charges against him in the trial court
for lack of jurisdiction, and, in the alternative,
moved that the jurisdictional issue relating to his
Indian status be submitted to the jury by means of a
special verdict. The trial court denied both motions
on 25 March 2016.
Defendant was subsequently tried in Superior
Court, Jackson County, beginning on 28 March 2016,
and was ultimately convicted of armed robbery, firstdegree murder under the felony murder doctrine,
and possession of a firearm by a felon. He was sentenced to life imprisonment without parole.
Defendant appealed his convictions to the Court of

6a
Appeals. His principal argument on appeal was that
the trial court had erred in denying his motion to
dismiss on jurisdictional grounds. In a unanimous
opinion, the Court of Appeals rejected his argument,
based on its determination that defendant did not
qualify as an Indian under the IMCA and that a special verdict was not required. State v. Nobles, 818
S.E.2d 129 (N.C. Ct. App. 2018). 2 Defendant filed a
petition for discretionary review with this Court on 7
August 2018, which we allowed.
Analysis
The two issues before us in this appeal are whether the Court of Appeals erred in affirming the trial
court’s order denying defendant’s motion to dismiss
and in ruling that the jurisdictional issue was not
required to be submitted to the jury by means of a
special verdict. We address each issue in turn.
I. Denial of Motion to Dismiss
The IMCA provides that “[a]ny Indian who commits [an enumerated major crime] against the person or property of another ... within the Indian country[ ] shall be subject to ... the exclusive jurisdiction
of the United States.” 18 U.S.C. § 1153(a); see United
States v. Juvenile Male, 666 F.3d 1212, 1214 (9th
Cir. 2012) (“[The IMCA] provides federal criminal
jurisdiction for certain crimes committed by Indians
in Indian country.”); United States v. Sands, 968
F.2d 1058, 1061 (10th Cir. 1992) (“[The IMCA] provides that federal criminal law applies to various ofThe Court of Appeals remanded the case to the trial court for
the sole purpose of correcting a clerical error. Nobles, 818
S.E.2d at 144. This portion of the Court of Appeals’ decision is
not before us in this appeal.
2

7a
fenses committed by Indians ... ‘within the Indian
Country.’”).
Here, there is no dispute that the shooting took
place in “Indian country” as it occurred within the
Qualla Boundary. Nor is there any dispute that the
charges against defendant constituted major crimes
for purposes of the IMCA. The question before us is
whether defendant qualifies as an Indian under that
statute.
The IMCA does not provide a definition of the
term “Indian.” The Supreme Court of the United
States, however, suggested a two-pronged test for
analyzing this issue in United States v. Rogers, 45
U.S. (4 How.) 567, 572–73, 11 L. Ed. 1105, 1107–08
(1846). To qualify as an Indian under the Rogers
test, a defendant must (1) have “some Indian blood,”
and (2) be “recognized as an Indian by a tribe or the
federal government or both.” United States v. Stymiest, 581 F.3d 759, 762 (8th Cir. 2009) (citing Rogers, 45 U.S. at 572–73, 11 L. Ed. at 1105); see also
United States v. Zepeda, 792 F.3d 1103, 1113 (9th
Cir. 2015) (en banc) (“We hold that proof of Indian
status under the IMCA requires only two things: (1)
proof of some quantum of Indian blood, ... and (2)
proof of membership in, or affiliation with, a federally recognized tribe.”).
In the present case, the parties agree that the
first prong of the Rogers test has been satisfied because defendant possesses an Indian blood quantum
of 11/256 (4.29%). Thus, only the second prong of
Rogers is at issue—that is, whether defendant has
received tribal or federal recognition as an Indian.
This Court has not previously had an opportunity to
apply the Rogers test. It is therefore instructive to

8a
examine how other courts have done so.
In applying the second prong of Rogers, both federal and state courts around the country have frequently utilized—in some fashion—the four-factor
balancing test first enunciated in St. Cloud v. United
States, 702 F. Supp. 1456 (D.S.D. 1988). Under the
St. Cloud test, a court considers the following factors:
1) enrollment in a tribe; 2) government recognition formally and informally through providing
the person assistance reserved only to Indians;
3) enjoying benefits of tribal affiliation; and 4)
social recognition as an Indian through living
on a reservation and participating in Indian social life.
Id. at 1461; see, e.g., United States v. Nowlin, 555 F.
App’x 820, 823 (10th Cir. 2014) (using the St. Cloud
factors to determine whether the defendant was an
Indian); United States v. Bruce, 394 F.3d 1215, 1223
(9th Cir. 2005) (applying the Rogers test as the “generally accepted test for Indian status” as well as the
St. Cloud factors); United States v. Lawrence, 51
F.3d 150, 152 (8th Cir. 1995) (court’s analysis of the
second Rogers prong was “guided by consideration of
four factors ... first enunciated in St. Cloud”); State v.
Sebastian, 243 Conn. 115, 132, 701 A.2d 13, 24
(1997) (“The four factors enumerated in St. Cloud
have emerged as a widely accepted test for Indian
status in the federal courts.”); State v. George, 163
Idaho 936, 939–40, 422 P.3d 1142, 1145–46 (2018)
(relying on the St. Cloud factors to determine the defendant’s Indian status); State v. LaPier, 242 Mont.
335, 341, 790 P.2d 983, 986 (1990) (“We expressly
adopt the foregoing [St. Cloud] test.”); State v.

9a
Perank, 858 P.2d 927, 933 (Utah 1992) (relying on
St. Cloud to determine whether the defendant met
the definition of an Indian); State v. Daniels, 104
Wash. App. 271, 281–82, 16 P.3d 650, 654–55 (2001)
(considering the St. Cloud factors in deciding whether the defendant qualified as an Indian).
Courts have varied, however, in their precise application of the St. Cloud factors. See, e.g., State v.
Salazar, No. A-1-CA-36206, ––– S.E.2d ––––, ––––
n.4, 2020 WL 239879, at *3 n.4 (N.M. Ct. App. Jan.
15, 2020) (“[A] circuit split has emerged about
whether certain factors carry more weight than others.”). Some courts deem the four factors set out in
St. Cloud to be exclusive and consider them “in declining order of importance.” Bruce, 394 F.3d at
1224; accord Sebastian, 243 Conn. at 132, 701 A.2d
at 24 (applying the four St. Cloud factors “in declining order of importance”); LaPier, 242 Mont. at 341,
790 P.2d at 986 (analyzing the St. Cloud factors “[i]n
declining order of importance”); Lewis v. State, 137
Idaho 882, 885, 55 P.3d 875, 878 (Idaho Ct. App.
2002) (“[Of the St. Cloud] factors tribal enrollment is
the most important.”); Daniels, 104 Wash. App. at
279, 16 P.3d at 654 (using the four factors identified
in St. Cloud “[i]n declining order of importance”).
Other courts have utilized the St. Cloud factors
differently. The Eighth Circuit has held that the four
St. Cloud factors “should not be considered exhaustive ... [n]or should they be tied to an order of importance.” Stymiest, 581 F.3d at 764. The Tenth Circuit has likewise determined that the St. Cloud factors “are not exclusive.” Nowlin, 555 F. App’x at 823
(“These factors are not exclusive and only the first
factor is dispositive if the defendant is an enrolled
tribe member.”).

10a
After thoroughly reviewing the decisions from
other jurisdictions addressing this issue, we adopt
the application of the St. Cloud factors utilized by
the Eighth Circuit and the Tenth Circuit. We do so
based on our belief that this formulation of the test
provides needed flexibility for courts in determining
the inherently imprecise issue of whether an individual should be considered to be an Indian under
the second prong of the Rogers test. We likewise recognize that, depending upon the circumstances in a
given case, relevant factors may exist beyond the
four St. Cloud factors that bear on this issue. See,
e.g., Stymiest, 581 F.3d at 764 (holding that the trial
court “properly identified two other factors relevant
on the facts of this case” in addition to the St. Cloud
factors—namely, that the defendant’s tribe had previously “exercised criminal jurisdiction over” him
and that the defendant “held himself out to be an
Indian”).
Before applying this test in the present case, however, we must first address defendant’s threshold
arguments. Initially, he contends that consideration
of the St. Cloud factors is unnecessary because his
status as a first descendant conclusively demonstrates—as a matter of law—his “tribal or federal
recognition” under the second Rogers prong. We reject this argument, however, based on our concern
that such an approach would reduce the Rogers test
into a purely blood-based inquiry, thereby conflating
the two prongs of the Rogers test into one. Were we
to hold that defendant may be classified as an Indian
solely on the basis of (1) his percentage of Cherokee
blood; and (2) his status as the son of an enrolled
member of the Cherokee tribe, this would transform
the Rogers test into one based wholly upon genetics.

11a
Such an approach would defeat the purpose of the
test, which is to ascertain not just a defendant’s
blood quotient, but also his social, societal, and spiritual ties to a tribe.
Indeed, the Ninth Circuit rejected this exact argument in United States v. Cruz, 554 F.3d 840 (9th
Cir. 2009), explaining that the four-factor test articulated in St. Cloud is designed to probe
“whether the Native American has a sufficient
non-racial link to a formerly sovereign people”
.... Given that many descendants of Indians are
eligible for tribal benefits based exclusively on
their blood heritage, the government’s argument [that the defendant’s descendant status
alone could satisfy this prong] would effectively
render the second [Rogers prong] a de facto nullity, and in most, if not all, cases would transform the entire [Rogers] analysis into a “blood
test.”
Cruz, 554 F.3d at 849 (citations and emphasis omitted).
We are likewise unpersuaded by defendant’s assertion that we should follow the decision of the
Cherokee Court in E. Band of Cherokee Indians v.
Lambert, 3 Cher. Rep. 62 (N.C. Cherokee Ct. 2003),
on this issue. At issue in Lambert was whether the
defendant in that case qualified as an Indian for
purposes of EBCI tribal criminal jurisdiction. Id. at
62. The defendant filed a motion to dismiss, contending that the EBCI lacked jurisdiction over her because she was not an enrolled member of the tribe.
Id. Both parties stipulated that the defendant was
recognized by the tribe as a first descendant. Id.
After holding a hearing to gather additional evi-

12a
dence, the court ruled that the defendant was “an
Indian for the purposes of [tribal criminal] jurisdiction.” Id. at 64. The court rejected the defendant’s
argument that her lack of enrollment in a tribe was
dispositive of her status, explaining that “membership in a Tribe is not an ‘essential factor’ in the test
of whether the person is an ‘Indian’ for the purposes
of this Court’s exercise of criminal jurisdiction.” Id.
Instead, the court relied on Rogers and the St. Cloud
factors to conclude that “the inquiry includes whether the person has some Indian blood and is recognized as an Indian.” Id.
The Cherokee Court ruled that “[a]pplying this
test in this case, the [c]ourt can only conclude that
the [d]efendant meets the definition of an Indian.”
Id. at 65. The court detailed the benefits and privileges available to EBCI first descendants, including
“some privileges that only Indians have, [as well as]
some privileges that members of other Tribes do not
possess.” Id. at 64. The court also took judicial notice
of the fact that the defendant had “availed herself of
the [c]ourt’s civil jurisdiction” to file a pending lawsuit against another tribal member. Id. at 63. Finally, the court noted that “[f]irst [d]escend[a]nts are
participating members of [the] community and
treated by the [t]ribe as such.” Id. at 64.
In the present case, we believe that defendant’s
reliance on Lambert is misplaced for several reasons.
First, it is far from clear that the Lambert court intended to announce a categorial rule that all first descendants must be classified as Indians. There, despite the parties’ stipulation that the defendant was,
in fact, an EBCI first descendant, the court nevertheless determined that “additional evidence was required to decide the matter” and proceeded to hold

13a
an evidentiary hearing. Id. at 62. The logical inference from the court’s opinion is that if first descendant status alone was sufficient to decide the issue,
the court would have had no need to seek additional
evidence in order to determine whether the defendant was subject to tribal jurisdiction. Indeed, we note
that the court in Lambert expressly made a finding
of fact that the defendant had previously “availed
herself of the [tribal] [c]ourt’s civil jurisdiction” to
file a lawsuit against another tribal member. Id. at
63. Such a finding would have been unnecessary had
the defendant’s first descendant status been enough
by itself to resolve the issue.
Moreover, even if the Cherokee Court in Lambert
did intend to articulate such a categorial rule, we
would not be bound by it. The court that decided
Lambert is a trial court within the EBCI judicial system. See Cherokee Code § 7-1(a) (“[T]he Trial Court
shall be known as the ‘Cherokee Court.’”). Defendant
has failed to offer any persuasive argument as to
why this Court should be bound by the decision of an
EBCI trial court on this issue. We note that the Supreme Court of the EBCI has made clear that it
“do[es] not consider the Cherokee Court opinions as
having any precedential value since the Cherokee
Court is the trial court for this appellate court.”
Teesateskie v. E. Band of Cherokee Indians Minors
Fund, 13 Am. Tribal Law 180, 188 (E. Cher. Sup. Ct.
2015). Thus, the decision in Lambert does not have
binding effect even within the EBCI courts.
Furthermore, as the Idaho Supreme Court has
noted, the fact that a tribal court may have exercised
its jurisdiction over certain defendants is not dispositive on the issue of whether a state court possesses
jurisdiction over such defendants in a particular

14a
case. See George, 163 Idaho at 940, 422 P.3d at 1146
(“[T]his [c]ourt either has jurisdiction or it does not,
and it is not determined by whether other agencies
have or do not have jurisdiction or exercise discretion in determining whether to prosecute.”). Accordingly, we hold that defendant’s status as a first descendant does not—without more—satisfy the second prong of the Rogers test.
Having rejected defendant’s initial arguments, we
now proceed to apply the four St. Cloud factors along
with any additional factors relevant to the analysis.
Before doing so, it is important to emphasize that
defendant has not specifically challenged any of the
hundreds of findings of fact contained in the trial
court’s order denying his motion to dismiss. Accordingly, those findings are binding upon us in this appeal. See State v. Sparks, 362 N.C. 181, 185, 657
S.E.2d 655, 658 (2008) (“It is well established that if
a party fails to object to the [trial court’s] findings of
fact and bring[s] them forward on appeal, they are
binding on the appellate court.”).
A. Enrollment in a Tribe
We first consider whether defendant is enrolled in
any “federally recognized tribe.” Zepeda, 792 F.3d at
1114. Here, the inquiry is a simple one. It is undisputed that defendant is not enrolled in any such
tribe.
B. Government Recognition Through Provision of Assistance
The second St. Cloud factor requires us to determine whether defendant was the recipient of “government recognition formally and informally
through receipt of assistance reserved only to Indi-

15a
ans.” Cruz, 554 F.3d at 846. In arguing that this factor supports his argument, defendant lists the types
of benefits for which first descendants are eligible.
However, this factor is concerned with those tribal
benefits a defendant has actually received as opposed
to those benefits for which he is merely eligible. See
Cruz, 554 F.3d at 848 (holding that defendant failed
to satisfy this prong of the St. Cloud test because he
“never ‘received ... any benefits from the Blackfeet
Tribe’ ”); accord United States v. LaBuff, 658 F.3d
873, 878 (9th Cir. 2011) (rejecting the argument that
this factor “could be established by demonstrating
eligibility rather than actual receipt of benefits”).
Here, based on the trial court’s findings of fact,
the only evidence of governmental assistance to defendant consisted of five incidents of free medical
treatment that he received as a minor at the Cherokee Indian Hospital, a hospital that serves only enrolled EBCI members and first descendants. Defendant’s hospital records indicated that he was of
EBCI descent and identified him as an “Indian
nontribal member.” The trial court made no findings
as to any tribal assistance that defendant has received since reaching adulthood.
C. Enjoyment of Benefits of Tribal Affiliation
The third factor under St. Cloud addresses defendant’s “enjoyment of the benefits of tribal affiliation.” Bruce, 394 F.3d at 1224. In assessing this factor, we must examine whether defendant has received any broader benefits from his affiliation with
a tribe—apart from the receipt of government assistance. See, e.g., Cruz, 554 F.3d at 848 (holding that
the defendant failed to demonstrate that he “enjoy[ed] any benefits of tribal affiliation” when there

16a
was “no evidence that he hunted or fished on the
reservation, nor ... that his employment with the
BIA was related to or contingent upon his tribal heritage”).
Here, defendant was born in Florida and the trial
court made no finding that he was born on tribal
land. He did attend a school in the Cherokee tribal
school system as a child after he and his mother
moved back to North Carolina in the early 1980’s,
but the school was open to both Indian and nonIndian students. As an adult, defendant lived and
worked on or near the Qualla Boundary for approximately fourteen months prior to the murder of Preidt in 2012. The trial court made no findings, however, suggesting that his employment at the restaurant
was in any way connected to his first descendant
status. Nor does the trial court’s order show that he
enjoyed any other benefits of tribal affiliation.
D. Social Recognition as an Indian
Under the fourth St. Cloud factor, we consider
whether defendant received “social recognition as an
Indian through residence on a reservation and participation in Indian social life.” Bruce, 394 F.3d at
1224. Courts applying this factor have deemed relevant various types of conduct showing a defendant’s
connection with a particular tribe. See, e.g., United
States v. Reza-Ramos, 816 F.3d 1110, 1122 (9th Cir.
2016) (defendant “spoke the tribal language” and
“had lived and worked on the reservation for some
time”); LaBuff, 658 F.3d at 878 (“[Defendant] lived,
grew up, and attended school on the Blackfeet Reservation.”); Stymiest, 581 F.3d at 765–66 (defendant
“lived and worked on the Rosebud reservation,” told
others he was an Indian, and spent significant time

17a
“socializing with other Indians”); Bruce, 394 F.3d at
1226 (defendant “was born on an Indian reservation
and currently lives on one,” she “participated in sacred tribal rituals,” and her mother and children
were enrolled members of a tribe).
Conversely, courts have determined that this factor weighs against a finding of Indian status under
the IMCA as to defendants who have never been involved in Indian cultural, community, or religious
events; never participated in tribal politics; and have
not placed any emphasis on their Indian heritage.
See, e.g., Cruz, 554 F.3d at 847 (defendant “never
participated in Indian religious ceremonies or dance
festivals, has never voted in a Blackfeet tribal election, and does not have a tribal identification card”);
Lawrence, 51 F.3d at 154 (victim was not “recognized
socially as an Indian” when she had only lived on the
reservation for seven months and “did not attend
pow-wows, Indian dances or other Indian cultural
events; and ... she and her family lived without focusing on their Indian heritage”).
In the present case—as noted above—defendant
lived and worked on or near the Qualla Boundary for
approximately fourteen months prior to the murder
of Preidt. During this time, he had a girlfriend, Ashlyn Carothers, who was an enrolled tribal member.
Defendant also emphasizes that his two tattoos—
which depict an eagle and a headdress—demonstrate
his celebration of his cultural heritage.
However, the trial court’s findings are devoid of
any indication that defendant ever attended any
EBCI cultural, community, or religious activities;
that he spoke the Cherokee language; that he possessed a tribal identification card; or that he partici-

18a
pated in tribal politics. Indeed, we note that Myrtle
Driver Johnson, an active elder and member of the
EBCI community, testified that she had never seen
defendant at EBCI events. Moreover, on several different official documents, defendant self-identified as
being “white.”
E. Other Relevant Factors
Finally, we consider whether any additional pertinent factors exist. For example, whether a defendant has been subjected to tribal jurisdiction in the
past—in either a criminal or civil context—has been
considered by several courts to be relevant. See, e.g.,
LaBuff, 658 F.3d at 879 (noting “that on multiple occasions, [the defendant] was arrested, prosecuted,
and convicted under the jurisdiction of the tribal
courts” and that “the assumption and exercise of
tribal jurisdiction over criminal charges[ ] demonstrates tribal recognition”); Stymiest, 581 F.3d at 766
(observing that the defendant had “repeatedly submitt[ed] [himself] to tribal arrests and prosecutions”); Bruce, 394 F.3d at 1226–27 (deeming instructive the fact that the defendant had been “arrested tribal all her life” because “the tribe has no
jurisdiction to punish anyone but an Indian”).
Here, the trial court’s findings do not show that
defendant was ever subjected to the jurisdiction of
the EBCI tribal court or, for that matter, any other
tribal court. Nor has defendant directed us to any
additional facts found by the trial court that would
otherwise be relevant under the second prong of the
Rogers test.
***
After carefully considering the trial court’s exten-

19a
sive findings of fact in light of the factors relevant to
the second prong of the Rogers test, we conclude that
defendant has failed to demonstrate that the trial
court erred in denying his motion to dismiss. In essence, the trial court’s findings show that (1) defendant is not enrolled in any tribe; (2) he received limited government assistance from the EBCI in the
form of free healthcare services on several occasions
as a minor; (3) as a child, he attended a Cherokee
school that accepted both Indian and non-Indian
students; (4) he lived and worked on the Qualla
Boundary for approximately fourteen months as an
adult; (5) his participation in Indian social life was
virtually nonexistent and his demonstrated celebration of his cultural heritage was at best minimal; (6)
he has never previously been subjected to tribal jurisdiction; and (7) he did not hold himself out as an
Indian. The trial court therefore properly concluded
that defendant was not an Indian for purposes of the
IMCA. Accordingly, we affirm the court’s denial of
his motion to dismiss.
II. Special Jury Verdict
The only remaining issue before us concerns defendant’s contention that he was entitled to a special
jury verdict on the jurisdictional issue underlying his
motion to dismiss. Defendant asserts that because
this issue required resolution by a jury the trial
court erred in ruling on the motion as a matter of
law. In support of this contention, he cites our decisions in State v. Batdorf, 293 N.C. 486, 238 S.E.2d
497 (1977) and State v. Rick, 342 N.C. 91, 463 S.E.2d
182 (1995).
In Batdorf, the defendant challenged the trial
court’s territorial jurisdiction, contending that there

20a
was insufficient evidence that his crime was committed in North Carolina—as opposed to Ohio—“so as to
confer jurisdiction on the courts of this State.”
Batdorf, 293 N.C. at 492, 238 S.E.2d at 502. We
agreed with the defendant that the State bears the
“burden of proving beyond a reasonable doubt that
the crime with which an accused is charged was
committed in North Carolina.” Id. at 494, 238 S.E.2d
at 502. We held that the trial court should have instructed the jury to “return a special verdict indicating lack of jurisdiction” if the jury was not satisfied
that the crime occurred in North Carolina. Id. at
494, 238 S.E.2d at 503.
Rick likewise involved a challenge to the trial
court’s territorial jurisdiction in which the defendant
contended that the State had not sufficiently proven
whether the crime occurred in North Carolina or
South Carolina. Rick, 342 N.C. at 98, 463 S.E.2d at
186. Citing the rule established in Batdorf, we determined that a remand was necessary because “the
record reveals that although the defendant challenged the facts of jurisdiction, the trial court did not
instruct the jury as to which party bore the burden
of proving jurisdiction and that if the jury was unconvinced beyond a reasonable doubt that the murder ... occurred in North Carolina, it should return a
special verdict so indicating.” Id. at 101, 463 S.E.2d
at 187.
Thus, Batdorf and Rick each involved a challenge
to the court’s territorial jurisdiction—that is, whether the crime occurred in North Carolina as opposed
to another state. Here, conversely, defendant is making the entirely separate argument that he was required to be prosecuted in federal court pursuant to
the IMCA. As a result, our decisions in Batdorf and

21a
Rick have no application here.
The dissent appears to be arguing that any challenge to the trial court’s jurisdiction in a criminal
case must always be resolved by a jury—regardless
of the nature of the jurisdictional challenge or
whether any factual disputes exist regarding the jurisdictional issue. Such an argument finds no support in our caselaw and would extend the rulings in
Batdorf and Rick well beyond the limited principle of
law for which those cases stand.
The dissent fails to point to any factual dispute
relevant to the IMCA analysis that exists in the record. 3 Given the absence of any such factual dispute,
it would make little sense to hold that a jury was required to decide the purely legal jurisdictional issue
presented here.
This principle is illustrated by our decision in
State v. Darroch, 305 N.C. 196, 287 S.E.2d 856
(1982). There, the defendant was convicted of accessory before the fact to murder. Id. at 197, 287 S.E.2d
at 857. The evidence showed that the defendant, a
Virginia resident, had—while in Virginia—hired two
persons to kill her husband and that the husband
was subsequently killed in North Carolina by the individuals she had hired. Id. On appeal, the defendant argued that the trial court lacked jurisdiction
over her based on the specific crime for which she
had been charged given that the murder had been
committed in North Carolina but arranged in another state. Id. at 200–01, 287 S.E.2d at 859–60. Relying on Batdorf, she contended that because she had
The dissent similarly does not acknowledge the effect of defendant’s failure to challenge on appeal any of the trial court’s
findings of fact.

3

22a
raised a jurisdictional issue “the jury should have
been allowed to return a special verdict” as to
whether jurisdiction existed in the trial court. Id. at
212, 287 S.E.2d at 866. In rejecting her argument,
we explained as follows:
While Batdorf still represents the law in this
state on the burden of proof on jurisdiction, it
is applicable only when the facts on which the
State seeks to base jurisdiction are challenged. In this case, defendant challenged not
the facts which the State contended supported
jurisdiction, but the theory of jurisdiction relied upon by the State. Whether the theory
supports jurisdiction is a legal question;
whether certain facts exist which would support jurisdiction is a jury question.
Id.
As in in Darroch, defendant here is not challenging the underlying “facts on which the State seeks to
base jurisdiction.” Id. Instead, defendant contests
the trial court’s determination that the IMCA is not
applicable in this case—an inherently legal question
properly decided by the trial court rather than by the
jury. 4
Finally, the dissent notes that some federal courts
have concluded that a defendant’s Indian status under the IMCA “is an element of the crime that must
be submitted to and decided by the jury” because it
is “essential to federal subject matter jurisdiction.”
Therefore, this case does not require us to decide the question
of whether a defendant’s challenge to a trial court’s jurisdiction
based on the IMCA could ever require a special jury verdict on
that issue in a case where—unlike here—a factual dispute exists that is relevant to the IMCA analysis.
4

23a
Stymiest, 581 F.3d at 763. Such a requirement is not
illogical given that “federal courts are courts of limited jurisdiction.” Owen Equip. & Erection Co. v.
Kroger, 437 U.S. 365, 374, 98 S.Ct. 2396, 57 L. Ed.
2d 274, 282 (1978). The dissent, however, has failed
to cite any authority for the converse proposition
that in state court proceedings the inapplicability of
the IMCA is an element of the crime that must be
submitted for resolution by the jury. Accordingly, we
conclude that the trial court did not err by denying
defendant’s request for a special jury verdict.
Conclusion
For the reasons stated above, we affirm the decision of the Court of Appeals.
AFFIRMED.

Justice EARLS dissenting.
I disagree with the majority’s conclusion that defendant was not entitled to a special jury verdict on
the question of whether he is an “Indian” under the
Indian Major Crimes Act (the IMCA). 1 Further, assuming that the majority is correct that this question was not required to be submitted to the jury, I
disagree with the majority’s conclusion that defendant is not an Indian under the IMCA. Accordingly, I
respectfully dissent.
As the majority notes, the fatal shooting of Barbara Preidt on 30 September 2012 occurred in Jackson
County within the Qualla Boundary, which is land
Like the majority, I use the term “Indian” to comport with the
terminology contained in the IMCA.
1

24a
that is held in trust by the United States for the
Eastern Band of Cherokee Indians (the EBCI), a federally-recognized tribe. Following an investigation
by the Cherokee Indian Police Department (the
CIPD), defendant was arrested within the Qualla
Boundary in connection with the shooting.
The Cherokee Rules of Criminal Procedure mandated that individuals arrested on tribal land must
be brought before a tribal magistrate to “conduct the
‘St. Cloud’ test” to determine whether the arrestee is
an Indian, and further that if the arrestee is an enrolled member of any federally-recognized tribe or an
EBCI First Descendant, jurisdiction lies with the
tribal court. Despite these Rules of Criminal Procedure, CIPD Detective Sean Birchfield did not bring
defendant before a tribal magistrate nor ask whether
defendant was a First Descendant. Rather, after
checking an EBCI enrollment book, which does not
include First Descendants, and determining that defendant was not an enrolled member, and after discussing the situation with a Jackson County Assistant District Attorney and a Special Assistant United States Attorney, Detective Birchfield transported
defendant to Jackson County, where he was charged
in State court with first-degree murder, robbery with
a dangerous weapon, and two counts of possession of
a firearm by a felon.
On 15 April 2013, defendant filed a motion to
dismiss in superior court, arguing that because he
was an Indian under the IMCA, jurisdiction over his
case lies exclusively in federal court. After a hearing,
the trial court denied defendant’s motion on 26 November 2013. Defendant later renewed his motion to
dismiss and requested in the alternative that the
question of whether he is an Indian be submitted to

25a
the jury for a special verdict. The trial court denied
these motions on 25 March 2016. On appeal, the
Court of Appeals upheld the trial court’s rulings,
concluding that defendant received a fair trial free
from error. State v. Nobles, 818 S.E.2d 129 (N.C. Ct.
App. 2018).
Special Jury Verdict
Defendant argues that the trial court erred in
denying his request for a special jury verdict because
he has a constitutional right to a jury trial, with the
burden on the State to prove every factual matter
necessary for his conviction and sentence beyond a
reasonable doubt. In support of his contention, defendant relies, in part, upon two cases from this
Court, State v. Batdorf, 293 N.C. 486, 238 S.E.2d 497
(1977), and State v. Rick, 342 N.C. 91, 463 S.E.2d
182 (1995).
In Batdorf, the defendant argued that there was
insufficient evidence that the murder at issue was
committed in North Carolina “so as to confer jurisdiction on the courts of this State.” 293 N.C. at 492,
238 S.E.2d at 502. The Court stated:
A defendant’s contention that this State lacks
jurisdiction may be an affirmative defense in
that it presents ... a matter “beyond the essentials of the legal definition of the offense itself.”
Jurisdictional issues, however, relate to the authority of a tribunal to adjudicate the questions
it is called upon to decide. When jurisdiction is
challenged, the defendant is contesting the very
power of this State to try him. We are of the
view that a question as basic as jurisdiction is
not an “independent, distinct, substantive mat-

26a
ter of exemption, immunity or defense” and
ought not to be regarded as an affirmative defense on which the defendant must bear the
burden of proof. Rather, jurisdiction is a matter
which, when contested, should be proven by the
prosecution as a prerequisite to the authority of
the court to enter judgment.
Id. at 493, 238 S.E.2d at 502 (citations omitted).
Thus, the Court held that “when jurisdiction is challenged, as here, the State must carry the burden and
show beyond a reasonable doubt that North Carolina
has jurisdiction to try the accused.” Id. at 494, 238
S.E.2d at 502–03. 2
Similarly, in Rick, the defendant filed a motion to
dismiss for lack of jurisdiction on the basis that
there was insufficient evidence that the murder with
which he was charged occurred in North Carolina.
342 N.C. at 98, 463 S.E.2d at 186. The Court determined that there was sufficient evidence that the
crime occurred in North Carolina, but that in light of
Batdorf the trial court erred because it “did not instruct the jury as to which party bore the burden of
proving jurisdiction and that if the jury was unconvinced beyond a reasonable doubt that the murder,
or the essential elements of murder, occurred in
The Court concluded that while the trial court there should
have instructed the jury “to return a special verdict indicating
lack of jurisdiction” if the jury did not find the killing occurred
in North Carolina, the instruction given “afford[ed] [defendant]
no just grounds for complaint” because the instruction “properly placed the burden of proof and instructed the jury that unless the State had satisfied it beyond a reasonable doubt that
the killing ... occurred in North Carolina, a verdict of not guilty
should be returned.” Batdorf, 293 N.C. at 494, 238 S.E.2d at
503.

2

27a
North Carolina, it should return a special verdict so
indicating.” Id. at 99–101, 463 S.E.2d at 186–87.
In addressing defendant’s argument, the majority
suggests that unlike a challenge to a court’s “territorial jurisdiction,” “defendant is making the entirely
separate argument that he was required to be prosecuted in federal court pursuant to the IMCA. As a
result, our decisions in Batdorf and Rick have no application here.” (Emphases added.) Yet, the majority
does not explain why the characterization of Batdorf
and Rick as cases involving challenges to “territorial
jurisdiction” renders them “entirely separate” and
inapplicable to a jurisdictional challenge in the context of the IMCA. 3 It is undisputed that defendant’s
Indian status has jurisdictional consequences here—
that is, if defendant is an Indian under the IMCA,
the trial court had no jurisdiction over the case. See
18 U.S.C. § 1153(a) (2012); see also Negonsott v.
Samuels, 507 U.S. 99, 102–03, 113 S.Ct. 1119, 122
L.Ed.2d 457 (1993) (“As the text of § 1153 and our
prior cases make clear, federal jurisdiction over the
offenses covered by the [IMCA] is ‘exclusive’ of state
jurisdiction.” (citations omitted)); United States v.
John, 437 U.S. 634, 651, 98 S.Ct. 2541, 57 L.Ed.2d
489 (1978) (stating that “the assumption that § 1153
ordinarily is pre-emptive of state jurisdiction when it
applies, seems to us to be correct”). Thus, defendant,
like the defendants in Batdorf and Rick, “is contesting the very power of this State to try him.” Batdorf,
If the issue was whether the crime occurred “within the Indian country” under the IMCA, I suspect the majority would hesitate to characterize the argument that the state court lacked
jurisdiction as “entirely separate,” such that, “[a]s a result, our
decisions in Batdorf and Rick have no application here.” (Emphasis added.)
3

28a
293 N.C. at 493, 238 S.E.2d at 502.
Rather than elaborate on any differences between
challenges to “territorial jurisdiction” and challenges
to jurisdiction under the IMCA, the majority, shifting gears, alleges that the issue of defendant’s Indian status here is a “purely legal” issue and therefore
need not be decided by a jury. 4 According to the majority, there is no “factual dispute relevant to the
IMCA analysis.” 5 Yet, the majority ignores that unAs defendant is not contending that Batdorf and Rick require
“purely legal” issues to be submitted to the jury, this determination essentially renders the majority’s previous paragraph
dicta. That is—assuming that defendant’s challenge here involved only a “purely legal” issue, there would be no need to
suggest that Batdorf and Rick are “entirely separate” and, “[a]s
a result,” have no application in the context of a challenge to
state court jurisdiction on the basis of the IMCA. The majority
appears to concede this, stating later in its opinion that “this
case does not require us to decide the question of whether defendant’s challenge to a trial court’s jurisdiction based on the
IMCA could ever require a special jury verdict on that issue in
a case where—unlike here—a factual dispute exists that is relevant to the IMCA analysis.”
5 The majority also notes “defendant’s failure to challenge on
appeal any of the trial court’s findings of fact.” This characterization is not wholly accurate, as defendant challenged on appeal numerous findings of fact in the court below. It is true that
before this Court defendant has not again raised those challenges to those findings. Yet, given that defendant’s argument
is that with respect to the question of his Indian status he was
entitled to have all facts found, and all evidence weighed, by
the jury, I can see little relevance to this issue in his failure to
again raise those challenges before this court. For instance,
were a trial judge in a prosecution for first degree murder to
make findings on the issue of premeditation and deliberation,
and refuse to submit that issue to the jury, it would make little
difference that the defendant requested a jury instruction on
the issue but failed to challenge any of those specific findings.
The real dispute here appears to be the extent to which we view
4

29a
der the federal law it purports to follow, a determination of Indian status involves fundamental questions of fact such that a defendant’s Indian status
itself is a “factual dispute.” See, e.g., United States v.
Bruce, 394 F.3d 1215, 1218 (9th Cir. 2005) (stating
that a determination of Indian status is “a mixed
question of law and fact”); see also United States v.
Gaudin, 515 U.S. 506, 511–12, 115 S.Ct. 2310, 132
L.Ed.2d 444 (1995) (rejecting the government’s argument that in a prosecution for making material
false statements in a matter within the jurisdiction
of a federal agency the question of “materiality” is a
“legal” question that need not be decided by a jury
and stating that the ultimate question of “whether
the statement was material to the decision” is an
“application-of-legal-standard-to-fact sort of question
... commonly called a ‘mixed question of law and
fact,’ ” which “has typically been resolved by juries”).
For example, the majority here expressly adopts the
test used by the Eighth Circuit and Tenth Circuit to
determine an individual’s Indian status for the purposes of the IMCA. See United States v. Stymiest,
581 F.3d 759 (8th Cir. 2009); United States v.
Nowlin, 555 F. App’x 820 (10th Cir. 2014). In these
circuits, the courts submit this test—the same one
the majority purports to apply here—to the jury to
determine whether a defendant is an Indian. See
Stymiest, 581 F.3d at 763 (stating that “the district
court properly denied the motion to dismiss and
submitted the issue of Indian status to the jury as an
element of the § 1153(a) offense.”); Nowlin, 555 F.
App’x at 823 (“Under the Major Crimes Act, 18
a determination of Indian status under the IMCA as inherently
involving questions of fact.

30a
U.S.C. § 1153, the prosecution must prove to the jury
that the defendant is an Indian.” (citing Stymiest,
581 F.3d at 763)).
Briefly addressing this concept, the majority notes
that federal courts addressing this issue, where a
conviction rests on a determination that the defendant is an Indian, have treated the question as an element of the offense, but that here the conviction
depends upon a showing that defendant is not an Indian, and no state court has considered the inapplicability of the IMCA to be an element of an offense. The fact that in our courts a defendant’s Indian status, or lack thereof, may not be an element of
the offense does not necessitate a conclusion that
this jurisdictional issue need not be submitted to the
jury. In fact, this is precisely the import of the
Court’s decision in Batdorf, to wit—that while “[a]
defendant’s contention that this State lacks jurisdiction presents ... a matter ‘beyond the essentials of
the legal definition of the offense itself,’” “the defendant is contesting the very power of this State to
try him” and “when jurisdiction is challenged, as
here, the State must carry the burden and show beyond a reasonable doubt that North Carolina has jurisdiction to try the accused.” Batdorf, 293 N.C. at
493–94, 238 S.E.2d at 502–03. 6
More importantly, the fact that in our state
courts, unlike in federal courts, a defendant’s Indian
status is not an element of the crime does not transUnder Batdorf, the fact that a defendant’s Indian status is not
an element of the crime in our state courts would be relevant in
prosecutions in which the defendant did not challenge jurisdiction, in which case the State would be relieved of its burden to
prove jurisdiction beyond a reasonable doubt.
6

31a
form an otherwise factual inquiry into a question
purely of law. The majority is misapprehending the
relevance of these federal decisions in which the jury
is asked to decide whether the defendant is an Indian—specifically, the majority is explicitly adopting a
test that is inherently a mixed question of fact and
law appropriate for resolution by a jury, 7 but then
denying defendant the right to have the question decided by a jury on the basis that it is a “purely legal”
issue.
Certainly, a determination of whether an individual is an Indian for the purposes of the IMCA is a
complicated inquiry. As the trial court stated, “deciding who is an ‘Indian’ has proven to be a difficult
question. In fact upon closer examination when one
looks to legal precedent the question quickly devolves into a multifaceted inquiry requiring examination into factual areas not normally considered in
our courts.” This inquiry is particularly complex in
that it involves difficult questions of race, including
the extent to which a defendant self-identifies as an
Indian, as well as credibility determinations regarding instances of self-identification. 8 Nonetheless, in
view of the fact that the test employed by federal
courts, and adopted today by the majority, requires
an inherently factual inquiry, as well as the fact that
After all, federal courts are not in the habit of submitting
“purely legal” issues to the jury. As the majority itself notes, “it
would make little sense” to submit questions strictly of law to
the jury.
8 For example, the trial court found that while defendant
claimed “at certain times to be white/Caucasian and then at
other times to be Indian,” the “variations,” including the use on
two occasions of different social security numbers “necessarily
call[ ] into question the veracity of Defendant.”
7

32a
our precedent requires jurisdiction, when contested,
to be submitted to the jury and proven beyond a reasonable doubt, I must respectfully dissent from the
majority’s conclusion on this issue.
Denial of Motion to Dismiss
Assuming arguendo that defendant is not entitled
to have the issue of his Indian status submitted to
the jury, I disagree with the majority that the trial
court correctly found that defendant was not an Indian under the IMCA. Applying the second prong of
the Rogers test using the application of the St. Cloud
factors utilized by the Eighth Circuit and Tenth Circuit, I would conclude that defendant is an Indian
under the IMCA.
First, I disagree with the majority’s reading of
Eastern Band of Cherokee Indians v. Lambert, 3
Cher. Rep. 62 (N.C. Cherokee Ct. 2003), in which the
Cherokee tribal court addressed whether the defendant was an Indian under the Rogers test such
that the tribal court could exercise criminal jurisdiction over the defendant. 9 The majority states that
because the parties stipulated that the defendant
was an EBCI First Descendant, but nevertheless determined that additional evidence was necessary and
therefore conducted an evidentiary hearing, “[t]he
logical inference is that if first descendant status
alone was sufficient to decide the issue, the court
would have had no need to seek additional evidence
in order to determine whether the defendant was
The tribal court’s criminal jurisdiction over the defendant depended upon whether the defendant was an “Indian” under the
Indian Civil Rights Act, which defines “Indian” by reference to
the meaning of an Indian under the IMCA. 25 U.S.C. § 1301(4).
9

33a
subject to tribal jurisdiction.” Given that the tribal
court had not previously addressed this question, the
logical inference in my view is that the court needed
additional evidence because this was an issue of first
impression for the tribal court. This is particularly
apparent given that essentially all of the tribal
court’s findings from that evidence address first descendants generally:
1. The Defendant, Sarella C. Lambert is not an
enrolled member of any federally recognized
Indian Tribe.
2. The Defendant, Sarella C. Lambert is recognized by the Eastern Band of Cherokee Indians
as a “First Lineal Descendent” (First Descendent).
3. To be an enrolled member of the Eastern
Band of Cherokee Indians, one must have at
least one ancestor on the 1924 Baker roll of
tribal members and possess at least one sixteenth blood quanta of Cherokee blood.
4. A First Descendent is a child of an enrolled
member, but who does not possess the minimum blood quanta to remain on the roll.
5. A First Descendent may inherit Indian Trust
property by testamentary devise and may occupy, own, sell or lease it to an enrolled member
during her lifetime. C.C. § 28-2. However, she
may not have mineral rights or decrease the
value of the holding. C.C. § 28-2(b).
6. A First Descendent has access to the Indian
Health Service for health and dental care.
7. A First Descendent has priority in hiring by
the Tribe over non-Indians, on a par with en-

34a
rolled members of another federally recognized
Tribe as part of the Tribe’s Indian preference in
hiring.
8. A First Descendent has access to Tribal
funds for educational purposes, provided that
funds have not been exhausted by enrolled
members.
9. A First Descendent may use the appeal process to appeal administrative decisions of Tribal entities.
10. A First Descendent may appear before the
Tribal Council to air grievances and complaints
and will be received by the Tribal Council in
relatively the same manner that an enrolled
member from another Indian Nation would be
received.
11. Other than the Trust responsibility owed to
a First Descendent who owns Indian Trust
property pursuant to C.C. § 28-2, the United
States Department of the Interior, Bureau of
Indian Affairs has no administrative or regulatory responsibilities with regard to First Descendents.
12. A First Descendent may not hold Tribal
elective office.
13. A First Descendent may not vote in Tribal
elections.
14. A First Descendent may not purchase Tribal Trust land.
15. The Court takes judicial notice of its own
records, and specifically of the fact that the Defendant has availed herself of the Court’s civil
jurisdiction in that she is the Plaintiff in the

35a
case of Sarella C. Lambert v. Calvin James,
CV-99-566, a case currently pending on the
Court’s civil docket.
16. The Defendant was charged with a proper
warrant and criminal complaint for Domestic
Violence Assault pursuant to C.C. §§ 1440.1(b)(6) and 14-40.10.
17. C.C. § 14-1.5 provides “The Cherokee Court
system shall have the right to hear cases, impose fines and penalties on non members as
well as members.”
Lambert, 3 Cher. Rep. at 62–63. The majority holds
up Finding of Fact 15 as proof that the tribal court
was making its determination based on more than
the defendant’s mere status as a first descendant.
Yet, the majority ignores the relevance of this finding to the court’s analysis:
The same concept is true here. By political definition First Descendents are the children of
enrolled members of the EBCI. They have some
privileges that only Indians have, but also some
privileges that members of other Tribes do not
possess, not the least of which is that they may
own possessory land holdings during their lifetimes, if they obtain them by will. During this
time, the Government will honor its trust obligations with respect to First Descendents who
own Tribal Trust lands. Also, First Descendents
have access to Tribal educational funds, with
certain limitations, and may appeal the adverse
administrative decisions of Tribal agencies.
Like members of other tribes, First Descendents may apply for jobs with the EBCI and receive an Indian preference and they may also

36a
address the Tribal Council in a similar manner
as members of other Tribes. Of course, it almost
goes without saying that First Descendents may,
as this Defendant has, seek recourse in the Judicial Branch of Tribal Government. Most importantly, according to the testimony of Councilwoman McCoy, First Descendents are participating members of this community and treated
by the Tribe as such.
Id. at 64 (emphasis added). In Lambert, the tribal
court plainly ruled that first descendants are Indians.
As the tribal court stated later that same year,
“this Court ... held [in Lambert] that first lineal descendants, children of enrolled members who do not
possess sufficient blood quanta to qualify for enrolment [sic] themselves are nevertheless subject to the
criminal jurisdiction of the Court.” In re Welch, 3
Cher. Rep. 71, 75 (N.C. Cherokee Ct. 2003) (citation
omitted); see also E. Band of Cherokee Indians v.
Prater, 3 Cher. Rep. 111, 112–13 (N.C. Cherokee Ct.
2004) (citing Lambert as “[h]olding that First Lineal
Descendants are Indians for the purposes of the exercise of [the tribal court’s] jurisdiction”). The tribal
court’s position that first descendants are Indians is
also reflected here in the trial court’s findings regarding the Cherokee Rules of Criminal Procedure,
which provided that when a tribal magistrate conducts the St. Cloud test, if a defendant is a First Descendant, “the inquiry ends there and the Court has
jurisdiction over the defendant.”
While I agree with the majority that the fact that
a tribal court has exercised its jurisdiction over certain defendants is not dispositive of the issue, signif-

37a
icant weight should be attributed to these tribal determinations that First Descendants are Indians,
particularly in a test that is, at bottom, designed to
determine whether an individual is “recognized as
an Indian by [the] tribe.” Stymiest, 581 F.3d at 762
(citing United States v. Rogers, 45 U.S. at 567, 572–
73 (1846)). Yet, while the majority discusses Lambert
in rejecting the notion that it alone satisfies the second prong of the Rogers test, the majority omits any
mention of Lambert, the subsequent tribal court decisions, or the Cherokee Rules of Criminal Procedure, in its balancing of the St. Cloud factors.
Next, the trial court and the majority both, in my
view, ignore the significance of the fact that defendant was incarcerated for nearly twenty years. The
trial court’s findings demonstrate that defendant
was born in Florida on 17 January 1976. When defendant was an infant, his father abandoned him
with his maternal uncle, Mr. Furman Smith Crowe,
an enrolled member of the EBCI. Defendant’s mother returned from Florida in the early 1980’s and
lived with defendant until at least 1990, at which
time they moved back to Florida. Defendant was
convicted in Florida on 28 January 1993 at the age of
seventeen years old and was imprisoned there until
his release on 4 November 2011, at which time he
returned to North Carolina and eventually began living on or around the Qualla Boundary. Defendant
was arrested on 30 November 2012 and has been
imprisoned since that time. In short, defendant—
now forty-four years old—has lived only about eighteen years of his life outside of prison. During the
large majority of that time defendant was a minor
and lived on or near the Qualla Boundary.
Here, in addressing the extent to which defendant

38a
received government assistance reserved for Indians,
the trial court made findings regarding the five separate instances that defendant, on the basis of his
First Descendant status, received free medical
treatment from Cherokee Indian Hospital ranging
from when he was nine to fourteen years old, but
then found that “there are no other records of accessing any other clinics or medical facilities overseen or
related to the CIH for over 23 years.” Similarly, in
addressing how defendant enjoyed the benefits of
tribal affiliation, the trial court found that “save
however for use of medical services a quarter of a
century ago Defendant has not demonstrated use of
any of his rights as a First Descendant of the Eastern Band of Cherokee” and that “Defendant has never ‘enjoyed’ these opportunities [afforded to First Descendants] which were made available for individuals similarly situated.” The majority stresses these
findings, stating that “[t]he trial court made no findings as to any tribal assistance that defendant has
received since reaching adulthood.” While I recognize
that defendant’s incarceration was a result of his
own conduct, the fact that during the vast majority
of those previous twenty-three years defendant was
wholly incapable of receiving further tribal assistance or enjoying benefits of tribal affiliation is salient, particularly in a test that is, again, geared towards determining whether an individual is “recognized as an Indian by [the] tribe.” Stymiest, 581 F.3d
at 762 (citing Rogers, 45 U.S. at 572–73). The extent
to which defendant received tribal assistance and
enjoyed the benefits of affiliation when he was actually at liberty to do so should, in my view, weigh
more heavily in such an analysis.
The disregard for defendant’s incarceration simi-

39a
larly pervades other portions of the majority’s analysis. For example, the majority finds it significant
that the trial court’s findings are devoid of any indication that he participated in tribal politics. Given
that defendant has spent the majority of his life outside of prison living on the Qualla Boundary, but
that he was over the age of eighteen for less than a
year of that time, I can see little significance in his
lack of participation in tribal politics in terms of
measuring his “social recognition as an Indian.” St.
Cloud v. United States, 702 F. Supp. 1456, 1461
(D.S.D. 1988).
In sum, I would conclude that defendant has been
“recognized by a tribe” and is an Indian for the purposes of the IMCA. 10 Of particular note, in my view,
are the tribal court decisions and Cherokee Rules of
Criminal Procedure providing that first descendants
are subject to the tribal court’s criminal jurisdiction
on the basis that they are Indians under Rogers and
the IMCA, as well as the findings that defendant has
lived the large majority of his non-incarcerated life
on or around the Qualla Boundary and during that
time received free hospital care and attended Cherokee school.
With respect to the findings regarding defendant’s tattoos,
the extent to which his claims of being an Indian are potentially contradicted by other instances of identifying as
“white/Caucasian,” including by signing his name to probation
documents that listed him as “white,” and his living on or
around the Qualla Boundary and dating a woman who is an
enrolled tribal member—to the extent that the majority relies
upon these in determining that defendant did not demonstrate
any legitimate celebration of his cultural heritage and did not
genuinely hold himself out as an Indian, this reliance undercuts its determination that this inquiry is a purely legal, rather
than factual, determination.
10

40a
Conclusion
For the reasons stated, I respectfully dissent from
the majority’s decision. I would reverse and remand
for a new trial, at which defendant is entitled to
have the question of his Indian status submitted to
the jury. In the alternative, assuming that defendant
is not entitled to have the question of his Indian status submitted to the jury, I would reverse the trial
court and conclude that the trial court lacks jurisdiction on the basis that defendant is an Indian under
the IMCA.

41a
APPENDIX B
Court of Appeals of North Carolina
STATE of North Carolina
v.
George Lee NOBLES
No. COA17-516
Filed: July 3, 2018
Appeal by defendant from judgments entered 15
April 2016 by Judge Bradley B. Letts in Jackson
County Superior Court. Heard in the Court of Appeals 21 March 2018. Jackson County, Nos. 12 CRS
51720, 1362–63
Attorney General Joshua H. Stein, by Assistant
Attorney General Kathleen N. Bolton, for the State.
Appellate Defender Glenn Gerding, by Assistant
Appellate Defender Anne M. Gomez, for defendant.
ELMORE, Judge.
Defendant George Lee Nobles, a non-enrolled
member of any federally recognized Native American 1 tribe but a first descendant of an enrolled
member of the Eastern Band of Cherokee Indians
(“EBCI”), appeals from judgments sentencing him to
life in prison after a North Carolina jury convicted
him of armed robbery, first-degree felony murder,
and firearm possession by a felon.
He argues the trial court erred by (1) denying his
motions to dismiss the charges on the grounds that
While we use the terms “Native American” and “Indian” interchangeably, we often use “Indian” to comport with the language used in the federal statute at issue in this case.

1

42a
the State of North Carolina lacked subject-matter
jurisdiction to prosecute him because he is an “Indian” and thus criminal jurisdiction lie exclusively in
federal court under the Indian Major Crimes Act
(“IMCA”), 18 U.S.C. § 1153 (2013); (2) denying his
request to submit the question of his Indian status to
the jury for a special verdict on subject-matter jurisdiction; and (3) denying his motion to suppress incriminating statements he made to police during a
custodial interview after allegedly invoking his right
to counsel. Defendant has also (4) filed a motion for
appropriate relief (“MAR”) with this Court, alleging
that his convictions were obtained in violation of his
constitutional rights. Finally, defendant (5) requests
we remand the matter to the trial court with instructions to correct a clerical error in its order arresting
judgment on the armed-robbery conviction, since
although that order lists the correct file number of
12 CRS 1363, it lists the wrong offense of firearm
possession by a felon.
As to the first three issues presented, we hold
there was no error. As to the MAR, we dismiss the
motion without prejudice to defendant’s right to file
a new MAR in the superior court. As to the clerical
error, we remand the matter to the trial court with
instructions to correct its order by listing the accurate offense of armed robbery.
I. Background
On 30 September 2012, Barbara Preidt, a nonIndian, was robbed at gunpoint and then fatally shot
outside the Fairfield Inn in the Qualla Boundary,
land held in trust by the United States for the EBCI.
On 30 November 2012, officers of the Cherokee Indian Police Department arrested defendant, Dwayne

43a
Edward Swayney, and Ashlyn Carothers for Preidt’s
robbery and murder. Soon after, tribal, federal, and
state prosecutors conferred together to determine
which charges would be brought and in which sovereign government criminal jurisdiction was proper for
each defendant. After discovering that Swayney was
an enrolled tribal member of the EBCI, and that
Carothers was an enrolled tribal member of the
Cherokee Nation of Oklahoma, authorities brought
these two defendants before an EBCI tribal magistrate. After discovering that defendant was not an
enrolled member of any federally recognized tribe,
the three sovereignties agreed that North Carolina
would exercise its criminal jurisdiction to prosecute
him, and authorities brought defendant before a
Jackson County magistrate, charging him with
armed robbery, murder, and firearm possession by a
felon.
In August 2013, defendant moved to dismiss those
charges for lack of jurisdiction. He argued North
Carolina lacked subject-matter jurisdiction because
he was an Indian, and thus the offenses were covered by the IMCA, which provides for exclusive federal jurisdiction over “major crimes” committed by
“Indians” in “Indian Country.” See 18 U.S.C. § 1153.
After a two-day pretrial jurisdictional hearing, the
state trial court judge, applying a Ninth Circuit test
to determine if someone qualifies as an Indian for
purposes of criminal jurisdiction, see United States v.
Bruce, 394 F.3d 1215 (9th Cir. 2005), concluded in a
detailed forty-two page order entered on 26 November 2013 that defendant was not an Indian and thus
denied defendant’s motion to dismiss for lack of subject-matter jurisdiction. On 18 December 2013, the
trial court granted defendant’s motion to stay crimi-

44a
nal proceedings pending resolution of his appeal
from its 26 November 2013 order. On 30 January
2014, defendant petitioned our Supreme Court for
certiorari review of that order, which it denied on 11
June 2014. On 23 June 2014, the trial court dissolved the stay.
In March 2016, defendant moved to suppress incriminating statements he made to police during a
custodial interview, which the trial court denied by
an order entered nunc pro tunc on 24 March. Also in
March, defendant renewed his motion to dismiss the
charges for lack of state criminal jurisdiction and
moved, alternatively, to submit the issue of his Indian status to the jury for a special verdict on subjectmatter jurisdiction. By another order entered nunc
pro tunc on 24 March, the trial court denied both
motions, reaffirming its prior ruling that criminal
jurisdiction properly lie in North Carolina, and concluding that a special instruction to the jury on defendant’s Indian status as it implicated North Carolina’s subject-matter jurisdiction was unwarranted.
From 28 March until 15 April 2016, defendant
was tried in Jackson County Superior Court, yielding jury convictions of armed robbery, first-degree
felony murder, and firearm possession by a felon.
The trial court arrested judgment on the armedrobbery conviction; entered a judgment on the murder conviction, sentencing defendant to life imprisonment without parole; and entered another judgment on the firearm-possession-by-a-felon conviction, sentencing defendant to an additional fourteen
to twenty-six months in prison. Defendant appeals.

45a
II. Arguments
On appeal, defendant asserts the trial court erred
by (1) denying his motions to dismiss the state-law
charges for lack of subject-matter jurisdiction because North Carolina was preempted from prosecuting him under the IMCA; (2) denying his request to
submit the issue of his Indian status to the jury for a
special verdict on subject-matter jurisdiction because
he presented sufficient evidence at the jurisdictional
hearing from which a jury could find that he is an
Indian, and he thus raised a factual issue as to jurisdiction; and (3) denying his motion to suppress the
incriminating statements he made to police during
his custodial interview because he invoked his right
to counsel. Defendant also asserts (4) the case must
be remanded to correct a clerical error.
III. Denial of Motion to Dismiss
Defendant first asserts the State of North Carolina lacked criminal jurisdiction to prosecute him because he is an “Indian” and thus the IMCA applied
to preempt state criminal jurisdiction. See 18 U.S.C.
§ 1153 (providing for exclusive federal jurisdiction
when an “Indian” commits certain enumerated “major crimes” in “Indian Country”). The State asserts
North Carolina enjoys concurrent criminal jurisdiction over all crimes committed in the Qualla Boundary, regardless of whether a defendant is an Indian.
Alternatively, the State argues that even if the IMCA would preempt North Carolina from exercising
criminal jurisdiction over these major crimes if they
occurred in the Qualla Boundary, it is inapplicable
here because defendant is not an “Indian.”

46a
A. Review Standard
“Whether a trial court has subject-matter jurisdiction is a question of law, reviewed de novo on appeal.” State v. Herman, 221 N.C. App. 204, 209, 726
S.E.2d 863, 866 (2012) (citing State v. Abbott, 217
N.C. App. 614, 616, 720 S.E.2d 437, 439 (2011)).
B. IMCA Preempts State Criminal Jurisdiction
The State first argues that Fourth Circuit and
North Carolina precedent establishes that “North
Carolina at least has concurrent criminal jurisdiction over the Qualla Boundary without regard to
whether the defendant is an Indian or non-Indian.”
Among other distinguishing reasons, those cases 2
are not controlling because they were decided before
United States v. John, 437 U.S. 634, 98 S.Ct. 2541,
57 L.Ed.2d 489 (1978) (holding that the State of Mississippi lacked criminal jurisdiction over a Choctaw
Indian for a major crime committed on the Choctaw
Reservation pursuant to the IMCA, regardless of
Choctaw Indians’ dual status as citizens of Mississippi and members of a federally recognized Indian
tribe). Cf. Eastern Band of Cherokee Indians v.
Lynch, 632 F.2d 373, 380 (4th Cir. 1980) (relying on
John’s rationale to hold that, although EBCI Indians
enjoy dual status as “citizens of North Carolina and
Indians living on a federally held reservation,” North
Carolina lacked authority to impose an income tax
on EBCI tribal members who derived their income
from activities on the reservation).
“[T]he exercise of state-court jurisdiction ... is
United States v. Hornbuckle, 422 F.2d 391 (4th Cir. 1970) (per
curium); State v. McAlhaney, 220 N.C. 387, 17 S.E.2d 352, 354
(1941); State v. Ta-Cha-Na-Tah, 64 N.C. 614 (1870).
2

47a
preempted by federal law. ... upon a showing of congressional intent to ‘occupy the field’ and prohibit
parallel state action.” Jackson Cty. v. Swayney, 319
N.C. 52, 56, 352 S.E.2d 413, 415–16 (1987) (citations
omitted). The IMCA provides in pertinent part:
(a) Any Indian who commits against ... [any]
other person ... murder, ... [or] robbery[ ] ...
within ... Indian country, shall be subject to the
same law and penalties as all other persons
committing any of the above offenses, within
the exclusive jurisdiction of the United States.
18 U.S.C. § 1153(a) (emphasis added). This language
demonstrates clear Congressional intent for “exclusive” federal criminal jurisdiction ousting parallel
state action when the IMCA applies. See Negonsott
v. Samuels, 507 U.S. 99, 102–03, 113 S.Ct. 1119,
1121–22, 122 L.Ed.2d 457 (1993) (“As the text of §
1153[ ] ... and our prior cases make clear, federal jurisdiction over the offenses covered by the [IMCA] is
‘exclusive’ of state jurisdiction.” (citations omitted) );
see also John, 437 U.S. at 651, 98 S.Ct. at 2550 (affirming that “§ 1153 ordinarily is pre-emptive of
state jurisdiction when it applies”).
Accordingly, when an “Indian” commits one of the
enumerated “major crimes” in the “Indian Country”
of the Qualla Boundary, the IMCA would ordinarily
oust North Carolina’s criminal jurisdiction. Murder
and armed robbery are “major crimes” under the
IMCA, and the offenses here were committed in undisputed “Indian Country.” See Lynch, 632 F.2d at
380. At issue is whether defendant qualifies as an
“Indian,” such that the IMCA applied to preempt
North Carolina from exercising its state criminal jurisdiction.

48a
C. The Rogers Test
Defendant claims Indian status with the EBCI.
Both parties concede the issue of whether someone
qualifies as an Indian under the IMCA is an issue of
first impression for both the Fourth Circuit and our
state appellate courts. While the ICMA does not explicate who qualifies as an “Indian” for federal criminal jurisdiction purposes, to answer this question
federal circuit courts of appeal employ a two-pronged
test suggested by United States v. Rogers, 45 U.S.
567, 573, 4 How. 567, 11 L.Ed. 1105 (1846). To satisfy the first prong, a defendant must have some Indian blood; to satisfy the second, a defendant must be
recognized as an Indian by a tribe and/or the federal
government. See, e.g., United States v. Zepeda, 792
F.3d 1103, 1106–07 (9th Cir. 2015) (en banc) (interpreting Rogers as requiring the “government [to]
prove that the defendant (1) has some quantum of
Indian blood and (2) is a member of, or is affiliated
with, the federally recognized tribe”); United States
v. Stymiest, 581 F.3d 759, 762 (8th Cir. 2009) (“The
[IMCA] does not define Indian, but the generally accepted test—adapted from ... Rogers[ ] ... —asks
whether the defendant (1) has some Indian blood,
and (2) is recognized as an Indian by a tribe or the
federal government or both.”). Here, the trial court
found, and neither party disputes, that Rogers’ first
prong was satisfied because defendant has an Indian
blood quantum of 11/256 or 4.29%. At issue is Rogers’ second prong.
While the Fourth Circuit has not addressed how
to apply Rogers to determine whether someone qualifies as an Indian, there is a federal circuit split in
assessing Rogers’ second prong. The Ninth Circuit
considers only the following four factors and “in de-

49a
clining order of importance”:
(1) enrollment in a federally recognized tribe;
(2) government recognition formally and informally through receipt of assistance available
only to individuals who are members, or are eligible to become members, of federally recognized tribes; (3) enjoyment of the benefits of affiliation with a federally recognized tribe; (4)
social recognition as someone affiliated with a
federally recognized tribe through residence on
a reservation and participation in the social life
of a federally recognized tribe.
Zepeda, 792 F.3d at 1114. The Eighth Circuit also
considers these factors but assigns them no order of
importance, other than tribal enrollment which it
deems dispositive of Indian status, and allows for the
consideration of other factors, such as whether a defendant has been subjected to tribal court jurisdiction and whether a defendant has held himself out
as an Indian. See Stymiest, 581 F.3d at 763–66.
Here, the trial court applied the Ninth Circuit’s
test and determined defendant was not an Indian for
criminal jurisdiction purposes. Because defendant
would not qualify as an Indian under either test, we
find no error in the trial court’s denial of his motion
to dismiss. Cf. State v. Austin, 320 N.C. 276, 290,
357 S.E.2d 641, 650 (1987) (“A correct decision of a
lower court will not be disturbed on review simply
because an insufficient or superfluous reason is assigned. The question for review is whether the ruling
of the trial court was correct and not whether the
reason given therefor is sound or tenable.” (citing
State v. Blackwell, 246 N.C. 642, 644, 99 S.E.2d 867,
869 (1957)).)

50a
D. Rogers’ Second Prong
Rogers’ second prong “asks whether the defendant
... is recognized as an Indian by a tribe or the federal
government or both.” Stymiest, 581 F.3d at 762. Defendant first argues he satisfied this prong as a matter of law because he presented evidence that he is a
first descendant of an enrolled member of the EBCI,
and the EBCI recognizes all first descendants as Indians for purposes of exercising tribal criminal jurisdiction.
Defendant relies on the Cherokee Court of the
EBCI’s decision in Eastern Band of Cherokee Indians
v. Lambert, No. CR 03-0313, 2003 WL 25902446, at
*2–3 (EBCI Tribal Ct. May 29, 2003) (holding that
the EBCI had tribal criminal jurisdiction over a nonenrolled first descendant), and its subsequent decisions interpreting Lambert as “[h]olding that First
Lineal Descendants are Indians for the purposes of
the exercise of this Court’s [tribal criminal] jurisdiction,” Eastern Band of Cherokee Indians v. Prater,
No. CR 03-1616, 2004 WL 5807679, at *1 (EBCI
Tribal Ct. Mar. 18, 2004); see also In re Welch, No.
SC 03-13, 2003 WL 25902440, *4 (Eastern Cherokee
Ct. Oct. 31, 2003) (interpreting Lambert as holding
that “first lineal descendants, children of enrolled
members who do not possess sufficient blood quanta
to qualify for enrollment themselves[,] are nevertheless subject to the criminal jurisdiction of the
Court”). Additionally, defendant relies on Rule 6 of
the Cherokee Rules of Criminal Procedure that instructs tribal magistrates when determining jurisdiction that tribal criminal jurisdiction exists if a
suspect is a first descendant. See Cherokee Code §
15-8, Rule 6(b).

51a
The State argues in relevant part that even if the
EBCI recognizes all first descendants as Indians for
purposes of exercising its tribal criminal jurisdiction,
this is only one factor to consider when assessing
Rogers’ second prong. We agree.
While exercising tribal criminal jurisdiction over
first descendants reflects a degree of tribal recognition, the Ninth Circuit has determined that “enrollment, and, indeed, even eligibility therefor, is not
dispositive of Indian status.” Bruce, 394 F.3d at
1225. As tribal enrollment has been declared insufficient to satisfy Rogers’ second prong as a matter of
law, it follows that the exercise of criminal tribal jurisdiction over first descendants is also insufficient.
Cf. United States v. Cruz, 554 F.3d 840, 851 (9th Cir.
2009) (“[A] showing that a tribal court on one occasion may have exercised jurisdiction over a defendant is of little if any consequence in satisfying the
[Indian] status element [beyond a reasonable doubt]
in a § 1153 prosecution.”). As the Ninth Circuit’s application of the Rogers test contemplates a balancing
of multiple factors to determine Indian status, we
reject defendant’s argument that the EBCI’s decision
to exercise its criminal tribal jurisdiction over first
descendants satisfies Rogers’ second prong as a matter of law.
E. St. Cloud Factors
Alternatively, defendant argues, he satisfied Rogers’ second prong under the Ninth Circuit’s test as
applied by the trial court. In St. Cloud v. United
States, 702 F.Supp. 1456, 1461 (D.S.D. 1988), the
Central Division of the United States District Court
of South Dakota set forth four factors to be considered in declining order of importance when evaluat-

52a
ing Rogers’ second prong. The Ninth Circuit adopted
these “St. Cloud” factors, see Bruce, 394 F.3d at
1223, and its later en banc articulation of its test instructs that “the criteria are, in declining order of
importance”:
(1) enrollment in a federally recognized tribe;
(2) government recognition formally and informally through receipt of assistance available
only to individuals who are members, or are eligible to become members, of federally recognized tribes; (3) enjoyment of the benefits of affiliation with a federally recognized tribe; (4)
social recognition as someone affiliated with a
federally recognized tribe through residence on
a reservation and participation in the social life
of a federally recognized tribe.
Zepeda, 792 F.3d at 1114.
1. First St. Cloud Factor
The first and most important St. Cloud factor
asks whether a defendant is an enrolled member of a
federally recognized tribe. Id. Here, the trial court
found, and defendant concedes, he is not an enrolled
tribal member of the EBCI or any federally recognized tribe, nor is he eligible to become an enrolled
member of the EBCI, as his 4.29% Indian blood
quantum fails to satisfy the minimum 16% necessary
for enrollment.
Nonetheless, defendant argues, this factor weighs
in his favor because “he has been afforded a special
status as a First Descendant.” The Ninth Circuit has
stated that while descendant status “does not carry
similar weight to enrollment, and should not be considered determinative, it reflects some degree of

53a
recognition.” United States v. Maggi, 598 F.3d 1073,
1082 (9th Cir. 2010), overruled on other grounds by
United States v. Zepeda, 792 F.3d 1103 (9th Cir.
2015). However, we find defendant’s first descendant
status carries little weight in this case.
First descendants are eligible for certain tribal
benefits unavailable to non-members or members of
other tribes. While the evidence showed that defendant would qualify for designation as a first descendant, it also showed that he is not classified by the
EBCI as a first descendant, and he is thus currently
ineligible to receive those benefits. The trial court’s
unchallenged findings established that individuals
designated as first descendants are issued a “Letter
of Descent” by the EBCI tribal enrollment office,
which is used to establish eligibility for first descendant benefits, and that no “Letter of Descent” for
defendant was found after a search of the official
documents in the tribal enrollment office. Cf. Cruz,
554 F.3d at 847 (concluding that “mere eligibility for
benefits is of no consequence under [the St. Cloud
factors]” and rejecting “the dissent’s argument that
mere descendant status with the concomitant eligibility to receive benefits is effectively sufficient to
demonstrate ‘tribal recognition’”). Accordingly, the
trial court properly determined the evidence presented failed to satisfy the first St. Cloud factor.
2. Second St. Cloud Factor
The second St. Cloud factor asks whether a defendant has been recognized by the government
“through receipt of assistance available only to individuals who are members, or are eligible to become
members, of federally recognized tribes.” Zepeda, 792
F.3d at 1114. Defendant argues this factor was satis-

54a
fied because he received health care services reserved only for Indians. The record evidence indicated that defendant received free health care services
on five occasions—31 October 1985, 1 October 1987,
12 March 1989, 16 March 1989, and 28 February
1990—from the Cherokee Indian Hospital (“CIH”),
which at the time was a federally funded Indian
Health Service (“IHS”).
Applying this evidence to the second St. Cloud
factor, the trial court found:
264. ... [U]nder the second St. Cloud factor the
only evidence of government recognition of the
Defendant as an Indian is the receipt of medical services at the CIH. The Federal government through the Indian Health Service provide[s] benefits reserved only to Indians arising
from the unique trust relationship with the
tribes. Also, the government of the Eastern
Band of Cherokee provides additional health
benefits to the enrolled members. The only evidence Defendant presents of the receipt of
health services available only to Indians is
medical care at the CIH more than two decades
ago as documented in his medical chart. While
it is true that he did receive care from the CIH
it is likewise true he sought acute care, this
care was when he was a minor and he was taken for treatment by his mother. Since becoming
an adult he has never sought further medical
care from the providers in Cherokee. Moreover,
the last time he sought care from the CIH was
over 23 years ago.
....
266. [E]xcept for the five visits to the CIH,

55a
there is no other evidence Defendant received
any services or assistance reserved only to individuals recognized as Indian under the second
St. Cloud factor.
Defendant relies on United States v. LaBuff, 658
F.3d 873 (9th Cir. 2011), to argue that receipt of free
health care services from an IHS satisfies the second
St. Cloud factor. LaBuff is distinguishable because
the defendant there, “since 1979, ... was seen at the
Blackfeet Community Hospital for Well Child care
services, walk-in visits, urgent care, and mental
health assistance[,]” and “since 2009, [he] sought
medical care approximately 10 to 15 times.” Id. at
879 n.8. Here, defendant only sought medical care
from the CIH five times when he was a minor, his
last visit occurring approximately twenty-two years
before he was arrested on the charges at issue in this
case. Cf. Zepeda, 792 F.3d at 1113 (“In a prosecution
under the IMCA, the government must prove that
the defendant was an Indian at the time of the offense with which the defendant is charged.” (emphasis added)). The trial court properly determined this
evidence failed to sufficiently satisfy the second St.
Cloud factor.
3. Third St. Cloud Factor
The third St. Cloud factor asks whether a defendant has “enjoy[ed] ... the benefits of affiliation with a
federally recognized tribe.” Zepeda, 792 F.3d at 1114.
Defendant argues he satisfied this factor based on
the same five CIH visits when he was a minor.
As to this third factor, the trial court found:
267. ... [U]nder the third St. Cloud factor the
Court must examine how Defendant has bene-

56a
fited from his affiliation with the Eastern Band
of Cherokee. The Defendant suggests he has
satisfied the third factor under the St. Cloud
test in that Cherokee law affords special benefits to First Descendants. To be sure the Cherokee Code as developed over time since the ratification of the 1986 Charter and Governing
Document does afford special benefits and opportunities to First Descendants. Whilst it is
accurate the Cherokee Code is replete with special provisions for First Descendants in areas of
real property, education, health care, inheritance, employment and access to the Tribal
Court, save however for use of medical services a
quarter of a century ago Defendant has not
demonstrated use of any of his rights as a First
Descendant of the Eastern Band of Cherokee.
268. ... [T]he third St. Cloud factor is ‘enjoyment’ of the benefits of tribal affiliation. Enjoyment connotes active and affirmative use.
Such is not the case with Defendant. Defendant
directs the undersigned to no positive, active
and confirmatory use of the special benefits afforded to First Descendants. Defendant has
never ‘enjoyed’ these opportunities which were
made available for individuals similarly situated who enjoy close family ties to the Cherokee
tribe. Rather, Defendant merely presents the
Cherokee Code and asks the undersigned to
substitute opportunity for action. To ascribe enjoyment of benefits where none occurred would
be tantamount to finding facts where none exist.
(Emphasis added.)

57a
In his brief, defendant challenges the following
factual finding on this factor:
275. ... [A]ccordingly after balancing all the evidence presented to the undersigned using the
Rogers test and applying the St. Cloud factors
in declining order of importance, ... while Defendant does have, barely, a small degree of Indian blood he is not an enrolled member of the
Eastern Cherokee, never benefited from his
special status as a First Descendant and is not
recognized as an Indian by the Eastern Band of
Cherokee Indians, any other federally recognized Indian tribe or the federal government.
Therefore, the Defendant for purposes of this
motion to dismiss is not an Indian.
Specifically, defendant challenges as unsupported
by the evidence the part of this finding that he “never benefited from his special status as a First Descendant and is not recognized as an Indian by the
EBCI ... or the federal government” because he was
recognized by the federal government when he was
benefited from his first descendant status by receiving federally-funded services from an IHS. To the
degree defendant may have benefited from his first
descendant status and was recognized by the federal
government by receiving free medical care from the
CIH on those five instances last occurring when he
was a minor twenty-three years before the hearing,
we conclude it is irrelevant in assessing this factor in
light of the absence of evidence that defendant enjoyed any other tribal benefits he may have been eligible to receive based on his first descendant status.
Accordingly, the trial court properly determined this
evidence failed to satisfactorily satisfy the third St.
Cloud factor.

58a
4. Fourth St. Cloud Factor
The fourth and least important St. Cloud factor
asks whether a defendant is “social[ly] recogni[zed]
as someone affiliated with a federally recognized
tribe through residence on a reservation and participation in the social life of a federally recognized
tribe.” Zepeda, 792 F.3d at 1114. Defendant asserts
he satisfied this factor because he “lived on or near
the Qualla Boundary for significant periods of time,”
attended Cherokee schools as a minor, and, after
leaving prison in Florida in 2011, he “returned to living on or near the Qualla Boundary, often with enrolled tribal members,” “got a job on the reservation,
and lived on the reservation with Carothers, a member of another tribe.” Defendant also argues his two
tattoos—an eagle and a Native American wearing a
headdress—“show an attempt to hold himself out as
an Indian.”
As to this factor, the trial court issued, inter alia,
the following finding:
271. ... [T]he Defendant simply has no ties to
the Qualla Boundary. ... [U]nder the fourth St.
Cloud factor Defendant points to no substantive involvement in the fabric of the Cherokee
Indian community at any time. The Defendant
did reside and work on or near the Cherokee
reservation for about 14 months when his probation was transferred from Florida to North
Carolina. Yet in these 14 months near Cherokee the record is devoid of any social involvement in the Cherokee community by the Defendant.
While the record evidence showed defendant re-

59a
turned to the Qualla Boundary in 2011 for about
fourteen months, resided on or near the Qualla
Boundary with an enrolled member of another tribe,
and worked for a restaurant, Homestyle Fried
Chicken, located within the Qualla Boundary, no evidence showed he participated in EBCI cultural or
social events, or in any EBCI religious ceremonies
during that time.
Myrtle Driver Johnson, a sixty-nine-year old enrolled EBCI member who has lived on the Qualla
Boundary her entire life and was bestowed the honor
of “Beloved Woman” by tribal leaders for her dedication and service to the EBCI, testified about EBCI
social and cultural life, and EBCI religious ceremonies. The trial court’s unchallenged findings establish that Johnson is “richly versed in the history of
the Eastern Cherokee” and “deeply involved in and a
leader of the Cherokee community regarding the
language, culture and tradition of the [EBCI].” Johnson testified she participated in various EBCI social
and cultural events and ceremonies on the Qualla
Boundary over the years and was unfamiliar with
defendant or his enrolled mother. Johnson also testified about the potential EBCI cultural symbolism of
defendant’s tattoos, opining that “[a]ll Native American Tribes honor the eagle” and it thus represented
nothing unique to the EBCI, and that the headdress
depicted on defendant’s tattoo was worn not by the
Cherokee but by “western plains Native Americans.”
The trial court properly determined this evidence
carried little weight under the fourth St. Cloud factor.
F. Sufficiency of Factual Findings
Defendant also challenges the evidentiary suffi-

60a
ciency of ten of the trial court’s 278 factual findings,
and eight subsections of another finding. However,
most of those findings either recite the absence of
evidence pertaining to defendant’s tribal affiliation
with the EBCI as to assessing his Indian status under Rogers, or were based on probation documents
indicating defendant’s race was “white/Caucasian,”
which were presented after the jurisdictional hearing. Erroneous or irrelevant findings that do not affect the trial court’s conclusions are not grounds for
reversal. See, e.g., State v. Hernandez, 170 N.C. App.
299, 305, 612 S.E.2d 420, 424 (2005) (“[A]n order
‘will not be disturbed because of ... erroneous findings which do not affect the conclusions.’” (citation
omitted)); Goodson v. Goodson, 145 N.C. App. 356,
360, 551 S.E.2d 200, 204 (2001) (“[I]rrelevant findings in a trial court’s decision do not warrant a reversal of the trial court.” (citations omitted)). Because we conclude the trial court’s other factual findings adequately supported its conclusions, we decline
to address the sufficiency of those findings.
G. Conclusion
Because the evidence presented did not demonstrate that defendant is an “Indian” or that he sufficiently satisfied any of the St. Cloud factors, the trial
court properly concluded defendant did not qualify
as an Indian for criminal jurisdiction purposes when
applying the Ninth Circuit’s test. Accordingly, the
trial court properly denied defendant’s motion to
dismiss the charges for lack of jurisdiction.
III. Denial of Motion for Special Jury Verdict
Defendant next asserts the superior court erred
by denying his pretrial motion to submit the issue of

61a
his Indian status to the jury for a special verdict on
subject-matter jurisdiction.
“[W]hen jurisdiction is challenged[ ] ... the State
must carry the burden [of proof] and show beyond a
reasonable doubt that North Carolina has jurisdiction to try the accused.” State v. Batdorf, 293 N.C.
486, 494, 238 S.E.2d 497, 502–03 (1977). In the territorial jurisdiction context, our Supreme Court has
explained:
When jurisdiction is challenged, the defendant
is contesting the very power of this State to try
him. We are of the view that a question as basic
as jurisdiction is not an ‘independent, distinct,
substantive matter of exemption, immunity or
defense’ and ought not to be regarded as an affirmative defense on which the defendant must
bear the burden of proof. Rather, jurisdiction is
a matter which, when contested, should be
proven by the prosecution as a prerequisite to
the authority of the court to enter judgment.
Id. at 493, 238 S.E.2d at 502 (internal citation omitted); see also State v. Rick, 342 N.C. 91, 100–01, 463
S.E.2d 182, 186 (1995) (“[T]he State, when jurisdiction is challenged, [is required] to prove beyond a
reasonable doubt that the crime with which defendant is charged occurred in North Carolina.” (citing
Batdorf, 293 N.C. at 494, 238 S.E.2d at 502–03); other citation omitted). However, unless sufficient evidence is adduced to create a jury question on jurisdiction, “a jury instruction regarding jurisdiction is
not warranted.” State v. White, 134 N.C. App. 338,
340, 517 S.E.2d 664, 666 (1999) (citation omitted).
The “preliminary determination that sufficient evidence exists” to create a jury question on the factual

62a
basis of jurisdiction is a question of law for the court.
Rick, 342 N.C. at 100–01, 463 S.E.2d at 187 (citations omitted).
Here, defendant filed a pretrial motion to dismiss
the charges against him for lack of state criminal jurisdiction. But his motion was grounded not in a
challenge to North Carolina’s territorial jurisdiction,
but in a challenge to its subject-matter jurisdiction,
based on his claim that he was an Indian. After the
pretrial jurisdictional hearing, the trial court entered an order denying defendant’s motion on the
basis that defendant was not an Indian for criminal
jurisdiction purposes and the State therefore satisfied its burden of proving jurisdiction beyond a reasonable doubt. Upon defendant’s renewed jurisdictional motion to dismiss or, in the alternative, to
submit the issue of his Indian status to the jury for a
special verdict on subject-matter jurisdiction, the
trial court entered another order denying both motions.
In this second order, the trial court reaffirmed its
prior ruling that North Carolina had criminal jurisdiction and thus denied the renewed jurisdictional
motion to dismiss on that basis. As to defendant’s
alternative motion for a special jurisdictional instruction to the jury, the trial court concluded that
because the crimes undisputedly occurred within
North Carolina, and the only special instruction on
jurisdiction concerned territorial jurisdiction, such
an instruction was unwarranted. As to defendant’s
specific request that his Indian status be submitted
to the jury, the trial court concluded that because it
“already determined the Defendant is not an Indian
for purposes of criminal jurisdiction” and “there exists no requirement that in order to convict the De-

63a
fendant in the North Carolina state court of murder
the State must prove beyond a reasonable doubt that
the defendant is an Indian,” submitting that issue to
the jury was unwarranted. We conclude the trial
court did not err in denying defendant’s motion for a
special instruction on the issue of his Indian status
as it related to state criminal jurisdiction.
Defendant’s cited authority concerns factual matters implicating territorial jurisdiction, not subjectmatter jurisdiction. Unlike IMCA prosecutions, under which Indian status is a jurisdictional prerequisite that the Government must prove beyond a reasonable doubt, see Zepeda, 792 F.3d at 1110 (“Under
the IMCA, ‘the defendant’s Indian status is an essential element ... which the government must allege
in the indictment and prove beyond a reasonable
doubt.’” (quoting Bruce, 394 F.3d at 1229)), neither
have our General Statutes nor our state appellate
court decisions burdened the State when prosecuting
major state-law crimes that occurred in Indian
Country to prove a defendant is not an Indian beyond a reasonable doubt. But even if the State had
such a burden, in this particular case, we conclude
defendant failed to adduce sufficient evidence to create a jury question on his Indian status.
The record evidence established that defendant
failed to satisfy the first and most important St.
Cloud factor of tribal enrollment, or even eligibility
for tribal enrollment. While defendant presented evidence that on five instances during his childhood he
received free health care based on his first descendant status, he presented no evidence he received or
enjoyed any other tribal benefits based on that status. Indeed, the evidence showed that while defendant would qualify to be designated by the EBCI as a

64a
first descendant for purposes of receiving such benefits, he was not currently recognized by the EBCI as
a first descendant based on his failure to apply for
and obtain a “Letter of Descent.” While defendant
returned to living on or near the Qualla Boundary in
2011 for fourteen months, he presented no evidence
that during that time he was involved in any EBCI
cultural or social activities or events or activities, or
any EBCI religious ceremonies. Finally, while defendant is tattooed with an eagle and a Native
American wearing a headdress, the State presented
evidence that the EBCI affords no unique significance to the eagle, and that headdress was never
worn during any EBCI ritual or tradition but was
worn by western plain Native Americans.
Based on defendant’s showing at the jurisdictional
hearing, we conclude he failed to adduce sufficient
evidence to create a jury question as to whether he
qualifies as an Indian for criminal jurisdiction purposes. Accordingly, the trial court properly denied
defendant’s motion to submit the issue of his Indian
status to the jury for a special verdict on subjectmatter jurisdiction.
IV. Denial of Motion to Suppress
Defendant contends the trial court erred by denying his motion to suppress incriminating statements
he made to police during a custodial interview after
allegedly invoking his constitutional right to counsel.
Our review of a trial court’s denial of a motion to
suppress is “strictly limited to determining whether
the trial judge’s underlying findings of fact are supported by competent evidence, in which event they
are conclusively binding on appeal, and whether

65a
those factual findings in turn support the judge’s ultimate conclusions of law.” State v. Cooke, 306 N.C.
132, 134, 291 S.E.2d 618, 619 (1982) (citations omitted). Conclusions of law are reviewed de novo. State
v. McCollum, 334 N.C. 208, 237, 433 S.E.2d 144, 160
(1993) (citation omitted).
The objective standard used to determine whether
a custodial suspect has unambiguously invoked his
right to counsel is whether “a reasonable police officer in the circumstances would understand the
statement to be a request for an attorney.” Davis v.
United States, 512 U.S. 452, 459, 114 S.Ct. 2350,
2355, 129 L.Ed.2d 362 (1994). “But if a suspect
makes a reference to an attorney that is ambiguous
or equivocal in that a reasonable officer in light of
the circumstances would have understood only that
the suspect might be invoking the right to counsel,
our precedents do not require the cessation of questioning.” Id. (citing McNeil v. Wisconsin, 501 U.S.
171, 178, 111 S.Ct. 2204, 2209, 115 L.Ed.2d 158
(1991)). For instance, “if a suspect is ‘indecisive in
his request for counsel,’ the officers need not always
cease questioning.” Id. at 460, 114 S.Ct. at 2356
(quoting Miranda v. Arizona, 384 U.S. 436, 485, 86
S.Ct. 1602, 1633, 16 L.Ed.2d 694 (1966)).
Further, even if a suspect unambiguously invokes
his right to counsel during a custodial interview, “he
is not subject to further questioning until a lawyer
has been made available or the suspect himself reinitiates conversation.” Id. at 458, 114 S.Ct. at 2354–
55 (emphasis added) (citing Edwards v. Arizona, 451
U.S. 477, 484–85, 101 S.Ct. 1880, 1884–85, 68
L.Ed.2d 378 (1981) ); see also Edwards, 451 U.S. at
484–85, 101 S.Ct. at 1885 (“[A]n accused ... [after invoking his right to counsel], is not subject to further

66a
interrogation by the authorities until counsel has
been made available to him, unless the accused himself initiates further communication, exchanges, or
conversations with the police.” (emphasis added)).
Here, the trial court found, unchallenged on appeal, that before his custodial interview, defendant
“was advised and read his Miranda ... rights,” that
he “initialed and signed the Miranda rights form,”
that he “understood his Miranda rights and at no
time subsequent to the commencement of the interview indicated he failed to understand his Miranda
rights,” and that he “then waived his Miranda rights
and spoke with law enforcement.” The trial court also issued the following unchallenged and thus binding findings:
80. In this case Defendant said “Can I consult
with a lawyer, I mean, or anything? I mean, I—
I—I did it. I’m not laughing, man, I want to cry
because it’s f[*]cked up to be put on the spot
like this.”
81. Applying an objective standard in analyzing
the statement of Defendant, the undersigned
finds there never was an assertion of a right
but rather simply a question. Further, Defendant did not stop talking after asking the question to allow law enforcement to respond. Defendant did not cease talking or refuse to answer more questions but rather continued talking to investigators for the entirety of the interview. The undersigned determines that no assertion of a right to counsel was made by Defendant.
....
83. This ambiguous statement by Defendant

67a
fails to support a finding that Miranda rights
were asserted.
84. Furthermore, the undersigned has also examined the claimed request for counsel by Defendant in the context of the questions posed
and answers given both before and after page
58. Again, with the expanded examination of
the statement made by Defendant and considering the context of that section of the interview, Defendant also fails to objectively establish he unequivocally and unambiguously invoked his Miranda rights to counsel.
85. Reviewing the entire transcript, the Defendant asked about the attorney as a question
on page 58. Law enforcement clearly and appropriately answered the question posed. Most
telling, Det. Iadonisi in response told Defendant he had a right to have an attorney followed
immediately by SBI Agent Oaks further clarifying and explaining that law enforcement can
never make the decision to invoke Miranda
rights for a defendant. After answering Defendant’s question, explaining he did have and
continued to possess Miranda rights and that
no person except Defendant could elect to assert and invoke Miranda rights, the Defendant
continued to talk to law enforcement.
86. With further import, it is essential to note
that for the entire remainder of the interview
the Defendant never again mentioned an attorney or told law enforcement he wished to stop
talking.
Our review of the video recording of defendant’s
interrogation comports with the trial court’s findings

68a
and its ultimate conclusion that defendant’s statements were not obtained in violation of his constitutional rights. Merely one-tenth of a second elapsed
between the time that defendant asked, “[c]an I consult with a lawyer, I mean, or anything?” and then
stated, “I mean I—I—I did it. I’m not laughing man,
I want to cry because its f[*]cked up to be put on the
spot like this.” The officers then immediately reminded defendant of his Miranda rights, that they
had just read him those rights, that defendant “ha[d]
the right to have [his attorney] here,” and that the
officers “[could] never make that choice for [him] one
way or another.” After police attempted to clarify
whether defendant’s question was an affirmative assertion of his Miranda rights, defendant declined to
unambiguously assert that right, continued communications, and never again asked about counsel for
the rest of the interview.
Although defendant explicitly asked if he could
consult with a lawyer, considering the totality of the
circumstances, we agree that defendant’s invocation
of his Miranda rights was ambiguous or equivocal,
such that the officers were not required to cease
questioning. Defendant did not pause between the
time he asked for counsel and gave his initial confession, the officers immediately reminded defendant of
his Miranda rights to clarify if he was indeed asserting his right to counsel, and defendant declined the
offered opportunity to unambiguously assert that
right but instead continued communicating with the
officers. Even if defendant’s question could be objectively construed as an unambiguous invocation of his
Miranda rights, it was immediately waived when he
initiated further communication. Accordingly, the
trial court properly denied defendant’s motion to

69a
suppress.
V. Motion for Appropriate Relief
After defendant’s appeal was docketed, he filed a
motion for appropriate relief (“MAR”) with this
Court. See N.C. Gen. Stat. § 15A-1418(a) (2017) (authorizing the filing of MARs in the appellate division). Section 15A-1418(b), governing the disposition
of MARs filed in the appellate division, provides in
relevant part that “[w]hen a motion for appropriate
relief is made in the appellate division, the appellate
court must decide whether the motion may be determined on the basis of the materials before it, or
whether it is necessary to remand the case to the
trial division for taking evidence or conducting other
proceedings[.] ...” Id. § 15A-1418(b) (2017).
Defendant’s MAR is primarily grounded in a claim
that his convictions were obtained “in violation of the
Constitution of the United States or the Constitution
of North Carolina.” See N.C. Gen. Stat. § 15A1415(b)(3) (2017). Where, as here, “[t]he materials
before [our appellate courts] are not sufficient for us
to make that determination,” our Supreme Court has
instructed that despite section 15A-1418(b)’s “suggest[ion] that the motion be remanded to the trial
court for hearing and determination, ... the better
procedure ... is to dismiss the motion and permit defendant, if he so desires, to file a new motion for appropriate relief in the superior court.” State v. Hurst,
304 N.C. 709, 712, 285 S.E.2d 808, 810 (1982) (per
curiam) (footnote omitted). Accordingly, we dismiss
defendant’s motion without prejudice to his right to
refile a new MAR in the superior court.

70a
VI. Clerical Error
Both parties agree the matter must be remanded
to the trial court to correct a clerical error in an order. After the jury convicted defendant of firstdegree felony murder in 12 CRS 51720, armed robbery in 12 CRS 1363, and firearm possession by a
felon in 12 CRS 1362, the trial judge rendered an
oral ruling arresting judgment on the armed-robbery
conviction. The written order arresting judgment reflects the correct file number of 12 CRS 1363; however, it incorrectly lists the offense as “possess firearm by felon,” an offense for which defendant was
separately sentenced. We remand the matter to the
trial court for the sole purpose of correcting its order
arresting judgment on 12 CRS 1363 to accurately reflect the offense of armed robbery.
VII. Conclusion
Because the evidence presented at the jurisdictional hearing failed to satisfactorily satisfy any St.
Cloud factor, the trial court properly concluded under the Ninth Circuit’s test that defendant does not
qualify as an Indian for criminal jurisdiction purposes and thus properly denied defendant’s motions to
dismiss the charges for lack of subject-matter jurisdiction. Because the evidence of defendant’s Indian
status raised no reasonable factual jury question implicating the State’s burden of proving North Carolina’s criminal jurisdiction, the trial court properly refused defendant’s request to submit the issue of his
Indian status to the jury for a special verdict on the
matter of subject-matter jurisdiction. Because defendant’s incriminating statements were not obtained in violation of his constitutional rights, the
trial court properly denied his motion to suppress.

71a
Accordingly, we conclude defendant received a fair
trial, free of error. Additionally, because the materials before us are insufficient to decide defendant’s
MAR, we dismiss his motion without prejudice to his
right to file a new MAR in the superior court. Finally, we remand this matter to the trial court for the
sole purpose of correcting the order arresting judgment on 12 CRS 1363 to accurately reflect the offense of armed robbery.
NO ERROR IN PART; DISMISSED IN PART;
REMANDED IN PART.
Judges INMAN and BERGER concur.

72a
APPENDIX C
STATE OF NORTH CAROLINA
COUNTY OF JACKSON
IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION
FILE NO. 12 CRS 1362-1363, 51719-51720
STATE OF NORTH CAROLINA
VS
GEORGE LEE NOBLES
ORDER ON DEFENDANT’S
MOTION TO DISMISS
THIS matter is before the undersigned on the Defendant's Motion to Dismiss filed April 16, 2013 and
the Amendment to Motion to Dismiss filed August 7,
2013. Present at the hearing was Jim Moore, Assistant District Attorney and Bridgette Aguirre, Assistant District Attorney representing the State. Todd
Williams and Vincent F. Rabil, Assistant Capital Defenders were present representing the Defendant,
and the Defendant George Lee Nobles was present.
The Court makes the following
FINDINGS OF FACT:
I.
A. Brief Summary of the Case at Bar
In the parking lot of the Fairfield Inn located in
Cherokee, North Carolina a shooting occurred resulting in the death of Barbra Wells Preidt on the evening of September 30, 2012. Following the death an
exhaustive investigation lead by the Cherokee Indian Police Department culminated in the arrest of

73a
George Lee Nobles on November 30, 2012 (hereinafter referred to as the “Defendant”). On November 30,
2012 the Defendant was charged with two counts of
possession of a firearm by a felon, robbery with a
dangerous weapon, and first degree murder in the
North Carolina State Court located in Jackson
County, North Carolina. Because the Defendant was
charged with first degree murder counsel was appointed by Robert M. Hurley, Capital Defender on
November 30, 2012. The Defendant by and through
counsel filed a motion to dismiss on April 16, 2013,
claiming he is an Indian1 as defined by law and alleging the State Court of North Carolina lacks jurisdiction over Defendant based upon his affiliation
with the Eastern Band of Cherokee Indians since the
homicide occurred on the Cherokee reservation. 2 The
undersigned schedule for hearing this Motion to
Dismiss on August 9, 2013. The hearing concluded
on September 13, 2013.
B. Facts
1. That the Court received testimony from Christian Clemmer. Mr. Clemmer is employed with
the North Carolina Department of Public Safety
in the Division of Adult Corrections (hereinafter
referred to as “DAC”). He has been employed for
the previous five years as a probation officer
The terms “Indian” and “Native American” are synonyms and
are used interchangeably throughout this order with “Indian”
being used primarily throughout this opinion as that is the
term employed in the statutes at issue in this motion to dismiss.
2 The terms “Qualla Boundary” and “Cherokee Indian reservation” are synonyms connoting the same meaning of “Indian
country” and are used interchangeably throughout this order.
1

74a
2.

3.

4.

5.
6.
7.

8.

with his duty station located in Gaston County.
That Mr. Clemmer was employed as a probation
officer on November 4, 2011 when a probation
case was transferred to Gaston County, North
Carolina from Polk County, Florida. The individual to be supervised was the Defendant.
That the Defendant was released from the custody of the Florida Department of Corrections on
November 4, 2011, after being convicted of
Armed Burglary and Grand Theft in Polk County, Florida on January 28, 1993.
That included in the information from Florida
was a presentence report which was generated
for the Florida Court on July 28, 1993. In the
preparation of the presentence report in which
Defendant participated, the document clearly
states Defendant was white/Caucasian making
no mention of any Indian affiliation. [See Attachment “A”].
That Mr. Clemmer first contacted the Defendant
on November 10, 2011.
That in addition to Mr. Clemmer the Defendant
was also supervised by Gaston County probation
officers James Sparrow and Chelsea Harris.
That the Defendant upon his arrival in North
Carolina resided with his mother Donna Lorraine Smith Crowe Mann at 5009 Tary Court,
Kings Mountain, North Carolina.
That the home at 5009 Tary Court was approved
as a suitable residence for the Defendant by the
Gaston County probation department. Mr.
Clemmer personally visited the residence on July 22, 2012.

75a
9. That 5009 Tary Court, Kings Mountain is located in Gaston County, North Carolina.
10. That the probation officers in Gaston County interacted with Defendant approximately 15 times
during the entire time of supervision between
November 4, 2011 and the date of the homicide
on September 30, 2012.
11. That Mr. Clemmer further testified and the
Court would find that race is not an issue considered germane to, or of any relevance by, the
DAC. In North Carolina issues of race have no
bearing on who is accepted and supervised by
the DAC. All persons subject to DAC supervision
are treated in the same manner regardless of
race, sex, age, wealth or the lack thereof, religious affiliation and any other personal factor
unrelated to the primary function and mission of
the DAC which is the care, custody and supervision of adults and juveniles after conviction for a
violation of North Carolina law.
12. That as Defendant asserts he is Indian based
upon a relationship with the Eastern Band of
Cherokee Indians, issues of ancestry are, however, germane to this motion to dismiss filed by the
Defendant and accordingly detailed inquiry is
necessary.
13. That the race of Defendant in the Interstate
Commission Compact paperwork is white/
Caucasian. [See Attachment “B” (page 1 of Probation Records)] This document is instructive
since the Defendant was presented with the application which clearly described him as
white/Caucasian. Notwithstanding this description the Defendant signed the application on Au-

76a
14.

15.

16.

17.

18.

19.

gust 11, 2011.
That the issue of race, a claim of being Native
American or any affiliation with an Indian tribe
by Defendant was never discussed with Mr.
Clemmer. Moreover, Defendant neither asserted
Native American ancestry nor questioned the
various and divergent documentation which all
identified Defendant as white/Caucasian at any
time while being supervised with any DAC probation officer.
That the Defendant neither informed DAC of
any unique Native American programs available
to him nor sought assistance from any DAC employee seeking special programs available for
Native American individuals either in the corrections system specifically or available to the
broader Native American population in general.
That during the time of probation supervision
the Defendant transferred his supervision from
Gaston County to Swain County on March 26,
2012.
That the Court received testimony from Olivia
Ammons. Ms. Ammons is employed with DAC.
She has been employed for the previous nine
years as a probation officer with her duty station
located in Swain County.
That Ms. Ammons was employed as a probation
officer during 2012 when the probation of Defendant transferred to Swain County from Gaston County on March 26, 2012.
That Ms. Ammons first met the Defendant
March 28, 2012, at the residence located at 404
Furman Smith Drive, Cherokee, North Carolina.
This residence is the home of Tonya Crowe, Aunt

77a
of the Defendant. In the mountainous and rural
areas of Jackson and Swain Counties it can often
be difficult to ascertain the exact boundary between counties. These occasional ambiguities are
often exacerbated when locations are on the
Cherokee reservation. It may be that that the
residence of Tonya Crowe was just inside the
Jackson County portion of the Qualla Boundary
but since the location was so close to the Swain
County boundary Ms. Ammons graciously decided to continue supervision of the Defendant. In
addition to the close proximity to Swain County
Ms. Ammons in an effort of cooperation sought to
assist her colleagues in the Jackson County probation office since during this period there did
exist a reduced staff available to handle the
workload.
20. That Ms. Ammons next met with Defendant on
April 3, 2012, in an office visit at the Swain
County Justice Center. Ms. Ammons reviewed
all the requirements Defendant was subject to
including the need for stable housing, employment, and mental health and substance abuse
treatment. Additionally, it was stressed to Defendant the necessity of maintaining contact
with his supervising officer and updating any
changes in living arrangements and employment
in a timely fashion.
21. That Defendant secured employment at Home
Style Chicken restaurant located at 510 Paint
Town Road, Cherokee, North Carolina. Defendant received payment for his work at Home Style
Chicken and ancillary to his salary was issued a
W-2 form.

78a
22. That the next scheduled office visit for Defendant was May 1, 2012. The Defendant did not attend the meeting, call to cancel or reschedule the
meeting or otherwise explain his absence to Ms.
Ammons.
23. That Ms. Ammons next visited the residence of
Defendant on May 2, 2012. Defendant was not
home and Ms. Ammons left a notice hung on the
door for Defendant to contact here immediately.
24. That Defendant attended a scheduled office visit
on May 7, 2012.
25. That the request for substance abuse screening
dated May 7, 2012, is likewise instructive. When
the request for screening form DCC26 was completed, the information clearly listed the background of Defendant and identified Defendant as
white/Caucasian. Notwithstanding this description Defendant signed the request on May 7,
2012. [See Attached “C” (page 51 of Probation
Records)]. It was at this meeting that Attachment “C” was generated.
26. That Ms. Ammons conducted a successful home
visit on May 8, 2012.
27. That Ms. Ammons spoke by phone to Tonya
Crowe regarding the Defendant. Ms. Crowe expressed growing concerns about Defendant
which were slowly developing with the continued
presence of Defendant in her home.
28. That on May 17, 2012, Defendant called Ms.
Ammons and advised he had left the residence of
his Aunt, Tonya Crowe at 404 Furman Smith
Drive and moved to Fort Wilderness
Campground, 284 Fort Wilderness Road, Whittier, North Carolina. This transition was not un-

79a

29.

30.

31.

32.

33.

34.

expected by Ms. Ammons based upon the prior
discussions with Ms. Crowe.
That due to this change in residence Ms. Ammons began the internal process for transferring
supervision from Swain County to Jackson
County on May 21, 2012. Whilst boundaries and
points of demarcation were less ascertainable between Jackson and Swain counties near 404
Furman
Smith
Drive,
Fort
Wilderness
Campground is indisputably situated in Jackson
County.
That the transfer request was denied by Jackson
County. The basis for denial was due solely to
the inability of Jackson County to confirm an actual address and residence for Defendant.
That on June 20, 2012, Defendant moved to the
residence of Ruth and Ricky Griggs, 460 Griggs
Lane, Bryson City, North Carolina. This residence is located in Swain County.
That upon investigation by Ms. Ammons it was
determined Defendant was spending approximately half his time at the Griggs' residence and
half his time with his girlfriend at a residence
unknown and unapproved by his probation officer.
That an office visit occurred June 25, 2012. At
this visit Defendant advised he had moved to
460 Griggs Lane and further advised he had quit
his job at Home Style Chicken eatery. Defendant
further informed Ms. Ammons his time in the
mountains had regrettably not gone as hoped
and he was seriously considering returning to
Gaston County and the residence of his mother.
That the next office visit was scheduled for July

80a
11, 2012. Defendant attended the meeting and
explained he was moving to Keener Avenue but
provided no address.
35. That on July 12, 2012, the Defendant in yet another reversal of course advised he was returning to Gaston County. Ms. Ammons instructed
Defendant to report to Chief Murray in Gaston
County no later than July 16, 2012. Ms. Ammons
completed all required internal documentation to
close out the supervision of Defendant in Swain
County which concluded her obligations and responsibilities in this matter. Supervision of the
Defendant returned to Gaston County on July
12, 2012.
36. That during the whole period Ms. Ammons supervised Defendant he never at any time indicated he was an enrolled member of the Eastern
Band of Cherokee Indians or that he was eligible
for any services provided to Native Americans of
any federally recognized Indian Tribe. Defendant
never asked for referral to any programs or services offered by the Eastern Band of Cherokee
Indians to its enrolled members or First Descendants.
37. That in the documentation in the custody of Ms.
Ammons the final four numbers of the Defendant's social security number are #2669 which is
consistent with the social security number given
by Defendant on his Cherokee Police Rights Interrogation Form which was admitted as State's
exhibit #2. [See Attachment “D”] The Court
would note the social security number given in
Attachment “D” is inconsistent with the social
security number on the Florida presentence re-

81a

38.

39.

40.
41.
42.
43.

44.

port in Attachment “A” and the “Affidavit of Indigency” form Defendant completed on November 30, 2012. [See Attachment “E”].
That the Court received testimony from Sean
Birchfield. Sean Birchfield is employed as a Sergeant/Detective with the Cherokee Indian Police
Department (hereinafter “CIPD”).
That Detective Birchfield obtained his BLET certificate in 1997. A year prior, in 1996, he received his certification as a Detention Officer.
Detective Birchfield began working as an officer
with the CIPD in January 2005. Detective Birchfield was employed prior to 2005 in law enforcement with the Swain County Sheriff’s Department.
That Detective Birchfield is a certified Law Enforcement Officer by the State of North Carolina.
That Detective Birchfield is a First Descendant
of the Eastern Band of Cherokee Indians.
That the CIPD is certified as a Law Enforcement
Agency by the State of North Carolina.
That Detective Birchfield attended numerous
professional and educational training courses
since his employment began with the CIPD.
These courses covered general law enforcement
issues as well as updates in case law, statutes,
issues of jurisdiction and matters unique to Indian law.
That in addition to general seminars and updates in law enforcement matters, Detective
Birchfield and the entire CIPD received specialized trainings in Indian law issues in 2006 and
2010. The attendees received tuition from Don

82a

45.
46.

47.
48.

49.
50.

51.

Gast, Assistant United States Attorney for the
Western District of North Carolina and also from
agents in the employ of the FBI. Further training is scheduled for the fall of 2013.
That Detective Birchfield responded to the scene
of the homicide at the Fairfield Inn located on
the Qualla Boundary on September 30, 2012.
That on the evening of November 29-30, 2012,
the Defendant was arrested at 1621 Olivet
Church Road, Cherokee, North Carolina. This
residence is located on trust land within the external borders of the Qualla Boundary.
That the Defendant following his arrest was
transported to the CIPD station located on the
Qualla Boundary.
That Detective Birchfield first met the Defendant at the CIPD station in the early morning
hours of November 30, 2012, following his arrest
by law enforcement at 1621 Olivet Church Road.
That Detective Birchfield spoke briefly to Defendant but did not conduct a formal interview.
That the Defendant was interviewed by other
law enforcement officers at the CIPD and this interview was recorded. A rights form was provided to Defendant and he signed the waiver on November 30, 2012, at 3:35AM which was admitted
as State's exhibit #2 and Attachment “D”.
That Detective Birchfield both ran an NCIC
criminal history on the Defendant whereupon he
learned there were no alerts or outstanding
State or federal process pending and reviewed
the tribal enrollment book which is maintained
at the CIPD to ascertain whether Defendant was

83a

52.
53.

54.

55.

56.

an enrolled member of the Eastern Band of
Cherokee.
That at the time of the arrest NCAWARE was
not available to law enforcement at the CIPD.
That as part of the investigation and arrest process Detective Birchfield discussed with other actors in the law enforcement community where
jurisdiction existed for the Defendant in light of
the specific criminal offenses being charged.
That more specifically, Detective Birchfield discussed what offenses would be charged and
which Court had proper jurisdiction for these offenses with Benjamin Reed, Chief of Police for
the CIPD, Lieutenant Gene Owle, CIPD, Jason
Smith, Eastern Band of Cherokee Indian Tribal
Court Prosecutor and Special Assistant United
States Attorney, and James Moore, Assistant
District Attorney for the 30th Judicial District of
North Carolina.
That upon completing the background investigation of George Lee Nobles and discussing the
matter with the officials described herein, Detective Birchfield charged the Defendant with the
murder of Barbra Preidt at the CIPD.
That all agencies after discussion and consultation determined jurisdiction over Defendant was
in the North Carolina State Court in general,
and venue for these offenses in Jackson County
in particular. After the decision to arrest and determination of jurisdiction was made, Detective
Birchfield transported Defendant to the Jackson
County detention facility for an immediate appearance before a Jackson County Magistrate.
The Defendant arrived at the Jackson County

84a

57.

58.

59.

60.
61.

Magistrate's office at approximately 7:00AM on
November 30, 2012.
That at the time of arrest Detective Birchfield
neither asked Defendant whether he was an enrolled member of the Eastern Band of Cherokee
Indians nor whether his parents were enrolled
members. However, as previously noted Detective Birchfield had reviewed the enrollment records kept at the CIPD and the name of the Defendant was not to be found.
That the United States Attorney for the Western
District of North Carolina has for many decades
enforced criminal laws against members of the
Eastern Band of Cherokee Indians pursuant to
the Major Crimes Act 18 U.S.C. §1153. It has
long been the policy of the United States Attorney for the Western District that as part of the
charging process for criminal offenses occurring
on the Qualla Boundary law enforcement officers
making an arrest are required to provide documentation to the Unites States Attorney certifying the defendant being charged is an enrolled
member of a federally recognized tribe.
That Detective Birchfield did not certify the Defendant was an enrolled member of the Eastern
Band of Cherokee or any other federally recognized Tribe at the time of arrest since there was
no evidence to warrant this determination or in
any manner suggest a reasonable and prudent
officer should make such a determination.
That Detective Birchfield testified he is aware of
Rule 6 of the Cherokee Tribal Court Rules of
Criminal Procedure.
That Detective Birchfield upon further investiga-

85a
tion after Defendant was arrested and taken to
the Jackson County magistrate, found no record
of any prior adult criminal charges against the
Defendant in the Cherokee Tribal Court. However, this search did not include a review of juvenile records in the Cherokee Tribal Court.
62. That arising out of the homicide on September
30, 2012, two other individuals were charged
with various related criminal offenses. Dwayne
Edward Swayney was charged and arrested on
the Qualla Boundary. Dewayne Swayney is an
enrolled member of the Eastern Band of Cherokee Indians. Law enforcement determined this
fact by reviewing and finding the name of
Dwayne Swayney in the enrollment records kept
for reference by law enforcement at the CIPD.
The other co-defendant was Ashlyn Carothers.
She was arrested at the CIPD. Ashlyn Carothers
was determined to not be an enrolled member of
the Eastern Band of Cherokee Indians. However,
Ms. Carothers was found to be an enrolled member of the Cherokee Nation of Oklahoma. Both
Mr. Swayney and Ms. Carothers were taken before a Tribal magistrate at the Cherokee Tribal
Court. The Arrest Report from CIPD for Mr.
Swayney was admitted as Defendant's exhibit
#2. The Arrest Report from CIPD for Ms.
Carothers was admitted as Defendant's exhibit
#3. The Affidavit of Jurisdiction for Ms. Carothers was completed by CIPD on November 30,
2012 which was admitted as Defendant's exhibit
#8 [See Attachment “F”]. The Affidavit of Jurisdiction completed by CIPD for Mr. Swayney was
admitted as Defendant's exhibit # 9 [See Attachment “G”]. The CIPD Warrants issued

86a

63.

64.

65.

66.

against Ms. Carothers for the charges of Homicide in the First Degree; Robbery with a Dangerous Weapon; Aid and Abet Homicide in the First
Degree and Aid and Abet Robbery with a Dangerous Weapon were admitted as Defendant's
exhibit # 10, 11, 12 and 13 respectively.
That both enrolled members of the Eastern Band
of Cherokee Indians and enrolled members of
other federally recognized Indian tribes are subject to the criminal jurisdiction of the Cherokee
Tribal Court. U.S. v. Wheeler, 435 U.S. 313
(1978); Cherokee Code Chapter 14-1.1(a); 25
U.S.C. §1301(2) (2013); U.S. v. Lara, 541 U.S.
193, 210 (2004).
That the Court received testimony from Kathie
McCoy. Ms. McCoy is an employee of the Eastern
Band of Cherokee Indians working in the office
of tribal enrollment. She has worked in this office for the past 16 years.
That as part of her job duties Ms. McCoy works
with the Tribal enrollment committee which is a
committee comprised of the Tribe's elected governmental leaders handling matters related to
enrollment issues.
That Ms. McCoy is aware of and knowledgeable
regarding enrollment eligibility in the Eastern
Band of Cherokee Indians. The three factors required by the Eastern Band of Cherokee for an
individual to be eligible for enrollment are:
a. being between the ages of 0-18;
b. being at least a 1/16 blood quantum; and
c. being a direct lineal descendant to an ancestor included in the 1924 Baker Roll.

87a

67.

68.

69.

70.

Cherokee Code §49-2 (The Cherokee Code
shall be cited as “C.C.” or “Cherokee Code”
hereinafter.)
That the required documentation sought by the
tribal enrollment office consists of a certified
birth certificate and photo ID. Applicants may
submit additional documentation in addition to
the required documents listed above but are not
required to do so.
That the State admitted into evidence State's
exhibit #4 [See Attachment “H”] which is an official document from the Eastern Band of Cherokee enrollment office stating that Defendant is
not an enrolled member of the Eastern Band of
Cherokee Indians.
That the State admitted into evidence State's
exhibit #5 stating Donna Lorraine Mann the
mother of Defendant is an enrolled member of
the Eastern Band of Cherokee Indians.
That the Eastern Band of Cherokee Indians does
recognize First Lineal Descendants (hereinafter
referred to as “First Descendent”) which are defined by Eastern Band of Cherokee Indian in
Section 16 of the Charter and Governing Document of the Eastern Band of Cherokee Indians,
as enacted and adopted May 8, 1986, and
amended by Tribal referendum October 8, 1986
and September 5, 1995. [See Attachment “I” for
Section 16 of the Charter in its entirety] Section
16 states in relevant part:
The first generation of an enrolled member
of the Eastern Band of Cherokee Indians
shall enjoy all property, both real and personal, that is held in said enrolled mem-

88a

71.

72.

73.

74.

75.

ber's possession at their death. First generation shall include all children born to or
adopted by an enrolled member.
That for individuals who are designated as First
Descendants the tribal enrollment office issues
documentation known as a “Letter of Descent.”
The document is issued by personnel in the enrollment office and is used to establish eligibility
for services in areas including, but not limited to,
health care, education and employment and for
identification purposes.
That the Eastern Band enrollment office maintains all official enrollment records. This repository of records is the official database of all enrollment documentation for the Eastern Band of
Cherokee. All documents in their possession
have been scanned into this single database.
That a search was requested of the Eastern
Band of Cherokee enrollment office for any records of the Defendant. Ms. McCoy conducted a
search of the official enrollment database for any
records pertaining to Defendant. No documents
regarding the Defendant were found.
That there exists neither a certificate of enrollment nor a “Letter of Descent” for the Defendant
issued by the Eastern Band of Cherokee Indians
enrollment office.
That while Defendant is neither enrolled nor
currently classified as a First Descendant, it is
the opinion of Ms. McCoy based upon the information available to her and relying primarily on
the fact that Defendant's biological mother is an
enrolled member, Defendant is eligible to be designated as a First Descendant by the enrollment

89a
76.

77.

78.

79.

office of the Eastern Band.
That the Court received testimony from Annette
Tarnawsky. Ms. Tarnawsky is employed by the
Eastern Band of Cherokee Indians as their Attorney General. She has been employed in the
legal division of the Tribe for 13 years serving as
associate counsel subsequently being promoted
to the position of Attorney General in 2009.
That the legal division of the Tribe provides legal
representation to the government of the Eastern
Band of Cherokee and all of its ancillary programs. As Attorney General she is the primary
legal advisor to the Tribe. Included amongst her
many and varied tasks and responsibilities are
the supervision of the legal division including its
attorneys, paralegals and support staff, working
with and advising the executive and legislative
branch of the Tribe, representing the Tribe and
its programs in judicial and administrative hearing and supervising the tribal prosecutor assigned to manage the criminal prosecutions in
Tribal Court.
That the tribal prosecution team currently consists of two positions with a lead prosecutor and
an assistant prosecutor. The lead tribal prosecutor is Jason Smith, Esq. The assistant tribal
prosecutor is Justin Eason, Esq.
That the Eastern Band of Cherokee Tribal government is founded upon the Charter and Governing Document of the Eastern Band of Cherokee Indians, as enacted and adopted May 8,
1986, and amended by Tribal referendum October 8, 1986 and September 5, 1995. [See Attachment “I”]

90a
80. That while Ms. Tarnawsky testified there are
three distinct branches which comprise the government of the Eastern Band of Cherokee Indians, the structure of the Eastern Cherokee government must be analyzed closer. Section 1 of
the Charter provides for an Executive Branch
and a Legislative Branch of government. The
Charter does not provide for a Judicial Branch.
However, the Eastern Cherokee exercising the
sovereign authority of the Tribe did establish the
Cherokee Tribal Court in C.C. §7-1 et. seq. Accordingly, while the Cherokee tribal government
is not in the Charter established as a distinctly
divided three branched system of government as
is commonly seen in the Federal and State structures, the Eastern Cherokee government functions as a de facto three branch system of government.
81. That each federally recognized Indian tribe decides who comprises their membership. This
membership determination is left solely to the
Tribes based upon their inherent sovereignty
and neither the State nor Federal government
may infringe on this most basic foundational criteria. Santa Clara Pueblo v. Martinez, 436 U.S.
49, 72 n. 36 (1978).
82. That the C.C. §49-2 defines qualifications for
membership in the Eastern Band of Cherokee.
Defendant is ineligible to become an enrolled
member of the Eastern Cherokee.
83. That as previously stated the blood quantum for
membership in the Eastern Band of Cherokee is
1/16. There did exist a period of time where this
blood quantum was expanded to 1/32. This ex-

91a

84.
85.

86.

87.

88.

panded eligibility appears to have occurred during the 1950's. However, since August 14, 1963,
the minimum blood quantum is 1/16. Moreover,
since the date of birth of the Defendant, at all
times during the life of the Defendant and on the
date of the alleged offense, the required blood
quantum has been 1/16 without variation or
modification.
That Ms. Tamawsky testified that in her opinion
Defendant is eligible to be designated as a First
Descendant under the Cherokee Code.
That enrolled members are recognized as Native
American by the Federal and Cherokee governments, treated differently and enjoy benefits
from this tribal affiliation in the form of various
services and opportunities not afforded to First
Descendants. These benefits include disparate
treatment in the areas of real estate, employment, education, inheritance, hunting & fishing
and voting.
That in the field of health care the Eastern Band
of Cherokee operate both health programs under
its governmental services matrix and the Cherokee Indian Hospital (hereinafter referred to as
“CIH”) also provides health care as a separate
Enterprise of the tribe under C.C. §130B.
The tribal government coordinates public health
services for enrolled members through the
Health and Medical Division consisting of among
other services community health, diabetes program, home health, Tasli Care nursing home,
WIC program, wound care and the women's
wellness clinic.
That CIH operates a hospital on the Qualla

92a
Boundary located at 1 Hospital Road, Cherokee,
NC and provides services to enrolled members. A
limited menu of services in the health field are
afforded to First Descendants at both the CIH
and the Health and Medical Division. The CIH
will only expend federal funds on First Descendants. No Eastern Band of Cherokee Indian tribal
monies are used to provide health care for First
Descendants. The CIH provides contract health
services to First Descendants only in life threatening situations and not to treat chronic conditions. Conversely, CIH expends funds for enrolled members in both life threatening and
chronic situations. First Descendants living in
the five counties of Jackson, Swain, Graham,
Haywood and Cherokee Counties receive direct
care and outside referrals. However, First Descendants living outside these five counties receive only direct care at the CIH and are not eligible for referrals.
89. That the distinctions, differences and variations
in the provision for and receipt of health care between enrolled members and First Descendants
is substantial, definable and articulable. There
likewise exists many additional limitations on
health care services provided to First Descendants as established by the CIH in its manuals,
policies and procedures under requirements of
the Indian Health Service. 25 U.S.C. §1661.
90. That the area of real estate in the context of
lndian jurisprudence is complex and requires
some background analysis which follows in this
order. At this juncture, however, it is sufficient
to note that the Cherokee Indian Reservation is
somewhat mis-named in that the land is not a

93a
reservation as understood in the context of Indian law. Regardless, these lands are held in trust
for the use and benefit of the Eastern Band of
Cherokee Indians and its members. The Eastern
Band of Cherokee Indians issues “Possessory
Holdings” to its members. Possessory Holdings
are specifically contemplated in section §16 of
the Tribal Charter and are codified Cherokee
Code §47-3 and §47-4.
91. That in the field of real estate the rights of enrolled members and First Descendants vary
markedly. Cherokee Code §47 delineates the different rights afforded to enrolled members and
First Descendants regarding the control and use
of real property. The rights of enrolled members
include the right to live, rent, lease or sell the
possessory interest subject to various other
rights against alienation as established in C.C.
§47-4. However, the limits of the use of a possessory interest for a First Descendant are established by tribal law at C.C. §28-2(b), (c) and (d).
First Descendants cannot use timber, minerals
or otherwise deplete the improvements of a possessory interest. C.C. §28-2(c). These very same
limitations are not placed upon enrolled members in the use and enjoyment of their Possessory Holdings. Accordingly, the rights afforded to
First Descendants are noticeably limited in comparison to enrolled members.
92. That the sale of a Possessory Holdings interest
may only be made to another enrolled member or
the Eastern Band of Cherokee Indians. Because
only an enrolled member may purchase a Possessory Holdings yet another limitation on First
Descendants in found in Cherokee law. C.C. §28-

94a
2(d).
93. That the basis upon which an enrolled member
may buy, use, divest and otherwise enjoy a Possessory Holdings flows to them as an enrolled
member of the Eastern Band of Cherokee and
the rights afforded to them flows from their
unique status as an enrolled member. However,
the sole basis upon which a First Descendent my
use, lease, or sale a Possessory Holdings comes
only from an interest previous enjoyed by the biological parent and not from the status of being a
First Descendent.
94. That in the sphere of inheritance the rights of
enrolled members and First Descendants is also
substantively different. First Descendants may
only take a Possessory Holdings by valid will.
C.C. §28-2. A First Descendant may never take a
Possessory Holdings by intestate succession.
C.C. §28-l(b). Unlike a First Descendant, an enrolled member may take a Possessory Holding by
ether a valid will or by intestate succession. C.C.
§28-1.
95. That regarding employment the Cherokee Code
provides employment preference for employment
with the Eastern Band of Cherokee Indians, its
Enterprises and all other Tribal governmental
employing agencies. C.C. §96-4.00 et. seq. The
employment preference of the Eastern Band is:
a. Enrolled members;
b. Spouses and parents of Enrolled Members;
c. Members of other federally recognized Indian Tribes; and
d. First Generation Descendant.

95a
96. That in the field of education distinctions are also found between enrolled members and First
Descendants. All children are welcome to attend
the Cherokee schools. C.C. §115-2. In regards to
higher education, while enrolled members receive education assistance no tribal monies may
be expended on First Descendant until after all
awards have been made to enrolled members.
Pursuant to Cherokee Code §115-8, First Descendants are a second priority and will only receive financial assistance when all awards to enrolled members have been made and there exists
additional funds which have been unspent.
97. That enrolled members enjoy unfettered rights
to hunt and fish on tribal lands which is not afforded to First Descendants. C.C. §113-4(b)(l)
and (2).
98. That in the area of voting and elections differences between First Descendant and enrolled
members is most stark. In tribal elections enrolled members may hold elected office and may
vote as established in Section 9 of the Charter.
However, a First Descendant may never hold
elected office and may never vote in any tribal
election. C.C. §161-3 (a)(l) and (b)(l).
99. That regarding the decision to transport Defendant to a Jackson County Magistrate after arrest,
Ms. Tamawsky believes that once a person is arrested they must be taken before a judicial official without unreasonable delay. This is a sound
and wise precaution. Moreover, North Carolina
likewise agrees and this practice is codified in
North Carolina law and located at N.C. Gen.
Stat. § 15A- 511.

96a
100. That Rule 6 of the Cherokee Tribal Court Rules
of Criminal Procedure seeks to afford these
same protections for individuals arrested on the
Qualla Boundary which are afforded to individuals arrested outside of “Indian country”.
101. That in deciding where to take the Defendant,
Ms. Tamawsky is of the opinion that tribal
prosecutor Jason Smith correctly exercised his
discretion and that the correct jurisdiction for
the offense of murder with which Defendant is
charged lies in the North Carolina State Court.
102. That prior to November 29, 2012, Ms.
Tamawsky did not know Defendant or his
mother and does not recall any previous interactions with them regarding any matter during
the preceding 13 years.
103. That in addition to being the Attorney General
and handling all legal issues brought before the
Tribe, there also exist in “Indian country” the
overlap of Indian language and Indian culture.
Beyond mere statutes and decisions from our
appellate courts throughout the United States,
legal counsel to Indian tribes must also consider factors of culture, history, language and customs rarely considered in other legal fields. 3
For guidance on these issues Ms. Tamawsky as
director of the legal division required all counsel to utilize the talents of Ms. Myrtle Driver
Johnson.
104. That the Court received testimony from Myrtle
Driver Johnson.
One example is found in the Indian Child Welfare Act regarding social and cultural standards of an Indian community. 25
U.S.C. § 1915(d).

3

97a
105. That Ms. Johnson is an enrolled member of the
Eastern Band of Cherokee Indians and has a
blood quantum of 4/4.
106. That Ms. Johnson has resided on the Qualla
Boundary her entire life and during these 69
years only left the area for extended periods related to educational studies.
107. That Ms. Johnson is a tribal elder and has been
bestowed the title of “Beloved Woman” by the
Eastern Band of Cherokee. This title is considered a great honor amongst the Cherokee. Her
award is recognition of a life devoted to her
people, her Tribe, and all the Chiefs, ViceChiefs and council members who have served in
Tribal government for these past decades.
108. That Ms. Johnson was elected and did serve
one term as a councilmember from her community.
109. That Ms. Johnson is fluent in the Cherokee
language. For over 20 years Ms. Johnson has
worked as the English Clerk and the Indian
Clerk translating English­Cherokee and Cherokee-English in Tribal Council. This role is especially important in that Cherokee Council
sessions are broadcast over the local cable television channel and re-broadcast in an effort to
inform the community of governmental actions.
Moreover, these translations assist older members of the Tribe who either may be unable to
attend sessions or to aid those older members
who primarily speak Cherokee to better understand the issues being debated.
110. That in addition to her work in tribal government Ms. Johnson teaches the Cherokee lan-

98a

111.
112.

113.
114.

115.

116.

guage. Ms. Johnson is a founding member and
instructor at the Kituwah Language Immersion
Academy. This program seeks to teach the
Cherokee language to young children at an early age in an effort to keep the Cherokee language alive.
That Ms. Johnson is richly versed in the history
of the Eastern Cherokee.
That at the time of this hearing in August
2013, the Eastern Band of Cherokee Indians is
comprised of approximately 14,000 members.
Many but not all enrolled members reside on
the Qualla Boundary.
That presently there are approximately 300 enrolled members that are fluent in the Cherokee
language.
That Ms. Johnson is deeply involved in and a
leader of the Cherokee community regarding
the language, culture and tradition of the Eastern Band of Cherokee. In Cherokee life language, culture and tradition are all inextricably
intertwined.
That from a historical perspective the Cherokee, also known as the Kituwah people, comprised their social structure in the form of a
matriarchal clan system. There exists seven
clans of the Cherokee: Potato, Deer, Paint,
Bird, Long Hair, Blue and Wolf. This matriarchal clan system remains in existence today. In
the matriarchal clan system kinship was traced
through the mother where all children joined
the clan of their mother.
That as part of the culture and tradition of the
Eastern Band of Cherokee there is every fall in

99a

117.

118.

119.

120.

121.

October the Cherokee Indian Fair. This has
been a tradition attended by enrolled members
for over 100 years. Also, there is the Kituwah
Celebration in June of each year located at the
Ferguson Fields property now owned by the
Eastern Band of Cherokee. Both of these events
celebrate the arts, crafts, language, traditions
and uniqueness of the Cherokee culture.
That there are medicine ceremonies still held
today which deal with native beliefs and local
remedies which remain an important and vibrant feature in contemporary Cherokee life.
These ceremonies are private and participation
is only afforded to enrolled members.
That in the Cherokee language a-ni-yo-ne-ga is
the word for people of white or light complexion. This word is a separate and distinct word
from that used to identify a member of the
Cherokee Tribe.
That Ms. Johnson opined there is a cultural belief held by the Cherokee people that
white/Caucasian persons are non-Native American. Conversely, all Indians are Native American.
That Ms. Johnson expressed their exists a cultural and widely held community belief that to
recognize non-Native Americans as Indians is
inconsistent with the unique government to
government relation between the Indian Tribes
and the United States, contravening the historical promises made by the United States to the
Native American populations.
That the State admitted into evidence State's
exhibit #6. This exhibit is a photograph of tat-

100a

122.

123.
124.
125.

126.

toos on the Defendant consisting in total of two
tattoos. The first was of an eagle. Based upon
the experience and knowledge of Ms. Johnson
the eagle and its symbolism is in her opinion a
generic symbol in Native American culture. It
is found and relevant to nearly all Indian
Tribes in the United States and represents
nothing unique to the Eastern Band of Cherokee. The second tattoo depicts an Indian with a
headdress. This tattoo is of unique significance
to Ms. Johnson. Headdresses were never worn,
used or employed for ceremonial purposes by
the Eastern Band of Cherokee. The headdress
of the type found tattooed on Defendant is of a
Western Plains Indian. In the opinion of Ms.
Johnson the headdress tattoo is devoid of any
relationship to the language, culture, history or
traditions of the Eastern Band of Cherokee Indians.
That the Court received testimony from John
Preidt, Jr. Mr. Preidt is 76 years old and resides in Shelbyville, Indiana. He was born in
Austria and immigrated to the United States in
1952.
That Mr. Preidt was married as a younger man
to Dorothy.
That following his marriage to Dorothy Mr.
Preidt remarried Barbra Wells. Mr. Preidt and
Barbra Wells married in 1962 or 1963.
That having been married to Barbra Wells Preidt since 1963, Mr. Preidt testified and the
Court would find that Barbra Wells Preidt was
white/Caucasian.
That during their marriage Mr. and Mrs. Preidt

101a

127.

128.

129.

130.

131.

were self-employed running a small business
which focused primarily on the ownership and
management of apartments.
That in the last days of September 2012 Mr.
and Mrs. Preidt were traveling south from Indiana to Jacksonville, Florida on a pleasure trip
to see the sister of Barbra who resides in the
Jacksonville area.
That as their travels led them towards Florida
they stopped for the evening in Cherokee,
North Carolina and rented a room at the Fairfield Inn. The Fairfield Inn is located at 568
Paint Town Road, Cherokee, North Carolina.
This hotel is located on the Jackson County
portion of the Qualla Boundary.
That in the waning hours between 9 and 10PM
on the evening of September 30, 2012, the Preidt's pulled their vehicle into the parking lot of
the Fairfield Inn. It was dark outside. After
driving around for a brief moment looking for a
parking place Mr. Preidt the operator of the
family vehicle chose and then parked in a parking space near the sidewalk in front of the Fairfield Inn. The parking lot and sidewalk were
built for and used by guests of the Fairfield Inn.
That after parking Mr. and Mrs. Preidt exited
their vehicle. Mr. Preidt existed the driver's
side door since he was driving and Mrs. Preidt
exited from the front passenger side door.
That as Barbra Preidt exited the car she lit a
cigarette. Almost instantaneously as they
alighted from the vehicle Mr. Preidt both heard
and, then as he turned to look, saw Barbra Preidt being dragged by an unknown person. This

102a

132.

133.

134.
135.

person came out of the darkness and was not
seen by Mr. Preidt as he drove through the
parking lot, when he parked his car or when he
exited on his side of the vehicle.
That upon hearing and seeing these events Mr.
Preidt immediately sprang into action running
around his vehicle as quickly as he could to
render aid and assistance to Barbra. As he
traversed to the other side of the vehicle and
approached Barbra, Mr. Preidt confronted a
man wearing a mask. Because of the mask Mr.
Preidt was unable to see the facial details of the
individual. Mr. Preidt did notice the masked
person was similar in height to his own 5' 6"
frame and similar in weight to the approximately 228 pounds Mr. Preidt then weighed on
that night.
That Mr. Preidt notwithstanding his age of 76
jumped on the masked person. However, Mr.
Preidt despite his gallant efforts was almost instantly thrown to the ground by the masked
man. Throughout these moments yelling was
constant. Mr. Preidt heard Barbra say in a loud
declaratory voice “leave me alone!!” and “get
out of here!!”
That Mr. Preidt testified he heard the masked
person respond to Barbra by saying “shut up!”
At the time Barbra was accosted by the masked
person she had somewhere between $4,000 and
$5,000 in cash in her purse. While an unusually
large amount of money to carry on one's person,
Mr. Preidt explained they were on vacation and
planned to be away from Indiana for an extended period of time while visiting Barbra's sister

103a
136.

137.

138.
139.
140.

141.

142.
143.

in Northern Florida.
That suddenly during the physical struggle between Barbra and the masked person Mr. Preidt heard a noise he described as a “popping
sound.” Mr. Preidt also described the sound he
heard as a “shot” or “bang.” Regarding the
number of shots Mr. Preidt believes he heard
the sound only one (1) time.
That after hearing the noise the masked man
ran away and took with him the purse belonging to Barbra. As the masked individual ran into the woods Mr. Preidt lost sight of him in the
darkness.
That contemporaneously with the masked person fleeing the scene Mr. Preidt heard Barbra
say “I think I have been shot.”
That Barbra Preidt had been shot.
That in an effort to render aid Mr. Preidt ran
into the hotel lobby of the Fairfield Inn and
asked the front desk clerk to immediately call
911. When Mr. Preidt left Barbra to seek assistance from 911 there were two female bystanders who remained with and comforted Barbra.
That after calling 911 as Mr. Preidt began to
return to Barbra both ladies who had remained
with Barbra informed Mr. Preidt that Barbra
was mortally wounded and had succumbed to
her wounds.
That Barbra Preidt died on the sidewalk in
front of the Fairfield Inn in Cherokee, North
Carolina on the evening of September 30, 2012.
That the Court received testimony from Vickie
Jenkins. Ms. Jenkins is employed with the

104a

144.

145.

146.
147.

148.

149.

Cherokee Indian Hospital and has worked at
the CIH for the past 33 years. She is employed
in the medical records department.
That Ms. Jenkins as custodian of the medical
records at the CIH brought a copy of all medical
records of Defendant to court pursuant to a
lawfully issued subpoena. Ms. Jenkins was familiar with the medical records of Defendant
and also during the hearing reviewed the records thereby affording her the opportunity to
refresh her memory of these records.
That to receive medical services at the CIH a
patient must be an enrolled member of the
Eastern Band of Cherokee or prove they are a
First Descendant and contemporaneously supply the required certification paperwork from
the Cherokee tribal enrollment office.
That patients of the CIH do not receive a bill
and do not pay for medical services.
That Ms. Jenkins testified based upon the information provided and after review of the medical records of the Defendant, in her opinion the
Defendant would not have to pay for medical
treatment at the CIH for services available to
First Descendants.
That the medical records for the Defendant at
the CIH indicated he was born on January 17,
1976. The last four digits of his social security
number are #2669.
That like all other medical providers there are
various codes used by the CIH. Coding is a
normal and generally accepted practice in the
health care industry.

105a
150. That the code assigned to the Eastern Band of
Cherokee Indians by the Indian Health Service
is “023”.
151. That the coding assigned to the degree of Indian blood is “001” for a full blood quantum, “002”
for less than a full but up to a half blood quantum, “003” for less than a half but up to a threequarters blood quantum, and “004” for a blood
quantum less than one-quarter. These codes
were developed by the Indian Health Services
and they are used by all Indian Health Services
facilities throughout the United States including the CIH.
152. That the medical records of Defendant were
admitted as Defendant's exhibit # 7. The CIH
assigned the chart #01-23-92 to the Defendant.
153. That the first visit to the CIH by Defendant
was on October 31, 1985. The last visit of Defendant was on February 28, 1990.
154. That the Defendant visited the CIH in total five
(5) times. These visits occurred on:
a.
October 31, 1985
b.
October 1, 1987
c.
March 12, 1989
d.
March 16, 1989
e.
February 28, 1990
155. That the last time Defendant used the medical
services at the CIH he was 14 years of age
which was over 23 years ago. Likewise, there
are no other records of accessing any other clinics or medical facilities overseen or related to
the CIH for over 23 years.
156. That the Court received testimony from Sam

106a

157.

158.

159.

160.
161.

Reed. Mr. Reed is an enrolled member of the
Eastern Band of Cherokee Indians. Mr. Reed
has worked as a Magistrate in the Cherokee
Tribal Court for the past three years. Prior to
becoming a magistrate Mr. Reed worked for 13
years as a law enforcement officer with the
CIPD.
That Mr. Reed has received extensive training
as a magistrate which includes attending the
School of Government course for North Carolina Magistrates in August of 2010. Also, he has
attended numerous federal Indian law training
courses offered by educational providers in the
Indian law field.
That magistrates in the Tribal Court only handle criminal matters with their duties not extending into the civil field. The single exception
to this practice is found where tribal magistrates review and when appropriate issue civil
domestic violence protection orders.
That the Cherokee Tribal Court staffs two separate magistrate offices. One office is located at
the CIPD. The other magistrate office is located
at the Cherokee Tribal Court. At both offices
there does exist computer access to the tribal
enrollment database for the Eastern Band of
Cherokee. This database is only available to
court officials including magistrates and is the
same enrollment database officially maintained
by the Tribal enrollment office supervised by
Kathie McCoy and Nancy Maney.
That the tribal enrollment database does not
include First Descendants.
That Mr. Reed discussed the procedures for is-

107a
suing criminal process in the Tribal Court. On
average approximately 15-20 criminal warrants
are issued by magistrates in a 24 hour period.
The process begins when a law enforcement officer completes an affidavit of jurisdiction and
criminal complaint form. The Affidavit of Jurisdiction is identical to the one admitted by
Defendant as Defendant's exhibit#4 [See Attachment “J”]. After completion of the jurisdictional form, the defendants along with the
complaint form are then taken to a tribal magistrate. The magistrate then issues a warrant
or summons based upon the severity of the offense and other relevant factors considered by
the tribal magistrate.
162. That Cherokee magistrates issue warrants and
summons for violations of the Cherokee Code.
These same tribal magistrates never issue process for violations of federal or North Carolina
law.
163. That the affidavit of jurisdiction form is used by
all tribal magistrates. That all tribal magistrates are familiar with the Rules of Criminal
Procedure and the Criminal Code of the Eastern Band of Cherokee. This jurisdictional form
is drafted so as to accommodate the provisions
of Rule 6 of the Criminal Rules of Procedure as
promulgated by the Cherokee Code.
164. That C.C. §15-8 Criminal Procedure authorizes
the creation of the Cherokee Rules of Criminal
Procedure. Rule 6 of the Cherokee Rules of
Criminal Procedure states in relevant part:
(a) In General.
(1) Appearance Upon Arrest. A person mak-

108a
ing an arrest within the Qualla Boundary must take the defendant without
unnecessary delay before a Magistrate
or Judge, unless the person taken into
custody is arrested on Federal or State
process, in which case they shall be
taken before the appropriate person as
provided for in N.C. Gen. Stat. §15A or
the Federal Rules of Criminal Procedure. It is not necessary for persons arrested for violating conditions of release
to be brought before the Magistrate.
(2) Appearance Upon a Summons. A person
served with a criminal summons must
appear before the Magistrate on duty
during the first business day following
service with the summons. Upon failure
of any defendant to report as Ordered,
the Magistrate on duty during the day
shall issue a Warrant for the defendant's arrest and charge him or her with
Failure to Obey a Lawful Order of the
Court.
(b) Procedures.
(1) Determining Jurisdiction. The Magistrate shall conduct the “St. Cloud” test
to confirm that the defendant is an Indian. This test is conducted as follows:
(A) Inquire if the defendant is an enrolled member of any Federally recognized Indian Tribe;
(B) Inquire if the defendant is a First
Descendent of the EBCI;
(C) Inquire if the defendant is a citizen

109a
of another country;
(D) Inquire if the defendant is a member
of any State recognized Indian Tribe;
and
(E) Inquire if the defendant participates
in any Indian cultural events, lives
on a Reservation, receives any benefits reserved exclusively for Indians,
or otherwise holds herself out as an
Indian.
If the answers to questions (A)-(C), or any
one of them, is “yes,” the inquiry ends
there and the Court has jurisdiction over
the defendant. If the answers to questions
(A)-(C) is “no,” but the answer to question
(D) or (E) is “yes,” further inquiry may be
in order to satisfy the Magistrate that the
defendant is an Indian for the purposes of
the exercise of jurisdiction. If the Magistrate determines that the defendant is a
non-Indian, then the Magistrate should
notify the CIPD of same, dismiss the
charges and tum the defendant over to the
CIPD for transport to the appropriate
State or local judicial officer or to the Federal authorities. In lieu of inquiring of the
defendant as outlined above, an Affidavit
such as the one attached in Appendix 1 to
these Rules may be utilized. If the defendant exercises his or her right to remain silent the Magistrate shall determine that
the defendant is an Indian for the purposes of jurisdiction, without prejudice to the
defendant's right to challenge jurisdiction

110a
at a later date. If the defendant is too intoxicated or impaired for the Magistrate to
conduct this inquiry, the Magistrate shall
order that the defendant appear before the
Magistrate on duty on the following business day for the conclusion of this proceeding.
(2) Waiver of Personal Jurisdiction. A nonIndian may waive the issue of personal jurisdiction and consent to proceeding in the
Cherokee Court. 4
C.C. §15-8 Rules of Criminal Procedure,
Cherokee Criminal Rules, Rule 6 (2013) [See
Attachment “K” for Rule 6 in its entirety].
165. That Rule 6 closely tracks the St. Cloud v.
United States factors discussed in more detail
hereinafter.
166. That Defendant places great emphasis on the
fact that Defendant was not taken before a
tribal magistrate for his St. Cloud inquiry but
rather was instead taken to the Jackson County State Court Magistrate. This protestation is
misplaced. By focusing on where the St. Cloud
inquiry occurred Defendant loses sight of the
fundamental basis upon which St. Cloud rests.
In light of the ruling in Oliphant v. Suquamish Indian Tribe,
435 U.S. 191 (1978) where the Supreme Court clearly stated
Indian tribes may not prosecute non-Indians without the express consent of Congress it must necessarily be asked how
such an inquiry could ever be grounded in personal as opposed
to subject matter jurisdiction and following this hurdle how an
individual could “consent” to jurisdiction not conferred by Congress and expressly denied by the United States Supreme
Court. Yet, an answer to this question is beyond the scope of
this order.
4

111a

167.

168.

169.

170.

The essential inquiry is not where the St. Cloud
inquiry occurs. Rather, the paramount consideration is whether the St. Cloud inquiry occurs.
To attach such importance to the location of the
inquiry is to erroneously place form over substance. Moreover, Defendant was in actual fact
afforded a hearing where the St. Cloud analysis
was conducted. But in the case of this Defendant, the hearing was only conducted after Defendant was provided most competent and capable counsel, adequate notice, an opportunity
to be heard and present evidence and an ancillary opportunity to supplement the hearing
with any written briefs and case law deemed
germane.
That the Court received testimony from Kelly
Oaks who is a special agent with the North
Carolina State Bureau of lnvestigations (hereinafter referred to as “SBI”). Agent Oaks has
been employed with the SBI as a special agent
for the preceding 15 years. That Agent Oaks'
supervisor is SBI Agent Tom Ammons.
That the Court admitted into evidence Defendant's exhibits #14, #15 and #16 which are
emails from the address of Agent Oaks regarding the investigation of the homicide.
That Agent Oaks testified the Cherokee Indian
Police Department was the lead investigation
agency in the criminal investigation surrounding the shooting of Barbra Preidt on September
30, 2012.
That Shannon Ashe, also a special agent for the
SBI, was the original agent assigned to assist
in this investigation. However, due to other du-

112a

171.

172.
173.
174.
175.
176.

177.
178.

ties he became unavailable and Agent Oaks
was then called upon for her assistance.
That Furman Smith Crowe testified at this
hearing. Mr. Crowe is an enrolled member of
the Eastern Band of Cherokee Indians and is
the maternal Uncle of Defendant. Mr. Crowe
has known the Defendant since he was two
weeks old. Mr. Furman Smith Crowe is the
brother to Donna Lorraine Smith Crowe Mann.
Donna Lorraine Smith Crowe Mann is the
mother of Defendant.
That when the Defendant was an infant his biological father George Robert Nobles abandoned
the Defendant with Mr. Crowe.
That Mr. Crowe identified the plat set forth in
Defendant's exhibit #17.
That Donna Lorraine Smith Crowe Mann testified. Ms. Mann was born May 9, 1955.
That Ms. Mann is the biological mother of the
Defendant George Lee Nobles who was born
January 17, 1976.
That Ms. Mann is an enrolled member of the
Eastern Band of Cherokee Indians. Her enrollment number is #R03976 and she possesses an
11/128 blood quantum.
That the birth certificate of Ms. Mann was
identified by her and admitted as Defendant's
exhibit #18.
That the biological father of the Defendant was
George Robert Nobles. Ms. Mann testified, and
the Court would find, that the biological father
George Robert Nobles was not Native American
having no membership in any federally recog-

113a

179.
180.
181.
182.

183.

184.

185.

186.

nized Indian tribe in the United States. George
Robert Nobles was white/Caucasian.
That George Robert Nobles is now deceased.
That Ms. Mann has lived in both Florida and
North Carolina over the past 30 years.
That Ms. Mann moved back to Cherokee, North
Carolina from her residence in Florida in the
early 1980's with Defendant.
That upon returning to the Cherokee area she
enrolled her son in both the Cherokee Tribal
school system and the Swain County school
system. These school records are set forth in
Defendant's exhibits #20 and #21.
That upon a more detailed examination of these
school records as the admitting parent Ms.
Mann represented to school admissions officials
that her son was not Indian. Specifically, page
13 in Defendant's exhibit #20 provides that Defendant­student was admitted as non-Indian.
That Defendant also provided medical records
as evidence in this hearing. Defendant's exhibit
#7 from the Cherokee Hospital and Defendant's
exhibit #19 from Swain County Hospital were
admitted into evidence.
That these medical records detail two separate
events in 1983 and 1985 both being auto accidents involving Defendant which required medical treatment.
That in the 1983 automobile accident Ms. Mann
was not in the vehicle with Defendant. In an
accident near Jenkins Grocery in the Birdtown
community of. the Qualla Boundary the Defendant was injured. The Defendant spent two

114a
weeks in the hospital and Ms. Mann testified
the Defendant sustained head injuries.
187. That in 1985 Defendant was again involved in
an automobile accident. This accident occurred
when Ms. Mann was present and in the same
vehicle where again Defendant needed treatment for injuries sustained as a result of this
accident.
188. That the Defendant sought and was allowed to
recall Detective Sean Birchfield to testify at the
hearing.
C. Stipulations
189. That the State and Defendant, by and through
his attorney of record stipulated to the following prior to the commencement of the hearing
on Defendant's Motion to Dismiss:
a. That on or about September 30, 2012 officers of the Cherokee Indian Police Department responded to a reported armed
robbery and homicide occurring on the
sidewalk in front of the Fairfield Inn located at 568 Paint Town Road, in Cherokee, Jackson County, N.C.
b. That the property located at 568 Paint
Town Road is land held by the United
States of America in trust for the Eastern
Band of Cherokee Indians and is also
known as the “Qualla Boundary” or as the
“Eastern Band of Cherokee Indians Reservation”.
c. That on or about November 30, 2012 at
approximately 6:00 a.m., Cherokee Indian
Police Department Officer Sean Birchfield

115a

d.
e.
f.

g.

h.

i.

arrested the Defendant at the Cherokee
Indian Police Department in connection
with the incident referenced above;
That the Cherokee Indian Police Department is located within the Qualla Boundary and is situated on Cherokee trust land.
That pursuant to the arrest, Defendant
was brought before Jackson County Magistrate A. 0. Reagan.
That Jackson County Magistrate A. 0.
Reagan found probable cause for the arrest of Defendant on the charge of First
Degree Murder and issued a Magistrate's
Order dated November 30, 2012 and filed
with the Jackson County Clerk of Superior
Court.
That the November 30, 2012 Magistrate's
Order was issued upon information furnished by arresting officer Sean Birchfield
of the Cherokee Indian Police Department.
That George Lee Nobles was born on January 17, 1976 to Donna Lorraine Smith
Crowe (dob May 5, 1955) in Polk County,
Florida; the parties stipulate and agree to
the admission of their respective birth certificates into evidence.
That Donna Lorraine Smith Crowe, now
known as Donna Lorraine Mann, is an enrolled member of the Eastern Band of
Cherokee Indians (EBCI), a federally recognized tribe, the EBCI having issued her
the number “R03978” to reference her enrollment.

116a
j. That George Lee Nobles is not an enrolled
member of the EBCI however he would be
a First Descendant of an enrolled member
of the EBCI.
k. The parties stipulate to the W-2 form issued to the Defendant for the 2012 tax
year by HOMESTYLE FRIED CHICKEN
to the Defendant for wages and income
paid to the Defendant as an employee of
the HOMESTYLE FRIED CHICKEN restaurant located at 510 Paint Town Road,
Cherokee NC 28719 situated within the
Qualla Boundary on Cherokee trust lands
and agree that the W-2 form is admissible
into evidence.
l. The parties stipulate the document titled
“Florida Department of Corrections
Presentence Investigation” included in the
State's discovery is a business record document kept in the regular course of business of the Florida DOC and agree to admit it into evidence beginning on page 8 at
the heading marked “Identification” and
continuing through the heading “Other
Statements” on page 10; the parties also
stipulate to page 12 at the paragraph beginning with “[i]t is felt” and continuing to
the end of page 12; all other pages and
content of this document have been redacted by agreement of the parties; the
Defendant does not stipulate to the truth
or accuracy of the information set out
within any portion of this document.
m. The parties stipulate that the Cherokee

117a
Central School records are records kept in
the ordinary course of business and are
admissible into evidence.
n. The parties stipulate that the Swain
County School records are records kept in
the ordinary course of business and are
admissible into evidence.
o. That George Lee Nobles was released from
the Florida Department of Corrections on
November 4, 2011 and post release supervision was transferred from Florida to
Kings Mountain, North Carolina.
190.

191.
192.

193.
194.
195.

D. Law and Exhibits
That the Eastern Band of Cherokee Indians has
adopted and subsequently codified its law. This
code is accessible at Municode Corporation via
this link http://library.municode.com/index.
aspx?clientid=13359.
That the undersigned takes Judicial Notice of
the Cherokee Code pursuant to N.C. Gen. Stat.
§201.
That the undersigned affords full faith and
credit to the Cherokee Code and the prior decisions of the Tribal Court pursuant to N.C. Gen.
Stat. §lE-1.
That the undersigned takes Judicial Notice of
Jackson County file numbers 12 CRS 1362, 12
CRS 1363, 12 CRS 51719 and 12 CRS 51720.
That the Court admitted into evidence State's
exhibits #1 through #8.
That the Court admitted into evidence Defendant's exhibits #1 through #21.

118a
196.
197.

198.

199.

200.

E. Harbison Inquiry of Defendant
That in support of the motion to dismiss, Defendant presented evidence at the hearing and
entered into stipulations with the State.
That in so doing Defendant requested of his attorneys that specific facts regarding his age,
background and ancestry be made part of the
record.
That counsel has to date represented the interests of Defendant to the highest standards of
professional competency any person charged
with crime could hope to be afforded. To this
end, counsel sought of the undersigned to inquire of Defendant that he fully and completely
understand the nature of the proceeding he initiated and that the facts found at the conclusion of the hearing would be established as part
of the record in the cases now pending against
Defendant. Moreover, these same facts could be
used against him in any subsequent hearings
including a trial by jury determining quilt and
innocence.
That while there were no admissions of guilt on
behalf of Defendant by counsel, the Court did
conduct an inquiry pursuant to State v. Harbison, 315 N.C. 175 (1985). This inquiry was done
in open court, outside the presence of any jury
and with counsel for Defendant present.
That Defendant understood in the course of the
hearing evidence was presented and stipulations were made. Defendant understood he requested his counsel to present this evidence
and sought there assistance in a judicial determination that Defendant was an “Indian” as

119a
defined by 25 U.S.C. §1153. Furthermore, Defendant understood that such a determination
would then subject him to the jurisdiction of the
federal courts.
201. That Defendant clearly, articulately and without reservation informed the undersigned he
consented to the hearing, stipulations and the
efforts of his able counsel in seeking a determination he was an “Indian” as that term is employed in federal law. This decision by Defendant was made freely, voluntarily and knowingly.
II.
A. Eastern Band of Cherokee Indian
Legal History
202. That the history of the Cherokees in North
Carolina is a complex, unique and compelling
story woven with the many and varied threads
of history, culture, land, language, politics, law,
and the foundation of the United States of
America.
203. That it is beyond the scope of this order to delve
deeply into the legal background of the Eastern
Band of Cherokee. However, for the purposes of
this order as it relates to issues of jurisdiction a
limited survey of the applicable laws and cases
is needed. 5
204. That the peoples now known as the Eastern
That for a more detailed and insightful, albeit dated, discussion of the legal history of the Eastern Cherokee the undersigned would refer the reader to “An Historical Analysis of the
Legal Status of the North Carolina Cherokees” 58 N.C. L.
Rev.1075 (1979) by Ben Oshel Bridgers, Esq.
5

120a
Cherokees are descendants of their ancestors
who refused to move to the Indian Territory
during the removal of 1838 which is now more
commonly referred to as the Trail of Tears. The
Trail of Tears was the result of the Treaty of
New Echota dated December 29, 1835 where in
exchange for the ceding to the United States of
all remaining Cherokee land east of the Mississippi river the Cherokee received $5,000,000
and a common interest in land already occupied
by the Western Cherokee west of the Mississippi river. Treaty of new Echota, 7 Stat. 478
(1835). 6
205. That the existence of native peoples predated
the formation of the Unites States. The same
existence of these indigenous peoples who governed themselves for centuries before the
founding of the United States forms the jurisprudential basis upon which the framework of
tribal sovereignty rests.
206. That in the United States Indian tribes have
jurisdiction to exercise their authority which
derives from their inherent sovereignty over
tribal members and tribal property. Oklahoma
Tax Commission v. Citizen Band of Potawatomi
Indian Tribe, 498 U.S. 505 (1991) citing Cherokee Nation v. Georgia, 30 U.S. 1 (1831). See also U.S. v. Wheeler, 435 U.S. 313, 323 (1978)
and Merrion v. Jicarilla Apache Tribe, 455 U.S.
103 (1982).
207. That inherent tribal sovereignty was discussed
That as an historical aside one is remiss by failing to note that
the Treaty of New Echota was never signed by any official or
officer of the Cherokee government.
6

121a
by the United States Supreme Court in the pivotal case of Worcester v. Georgia, 31 U.S. 515
(1832), where Chief Justice John Marshall determined that the new states of the United
States did not have jurisdiction over Indians or
Indian governments. Mr. Chief Justice Marshall explained
The Cherokee nation, then, is a distinct
community occupying its own territory,
with boundaries accurately described, in
which the laws of Georgia can have no
force, and which the citizens of Georgia
have no right to enter, but with the assent
of the Cherokees themselves, or in conformity with treaties, and with the acts of
congress. The whole intercourse between
the United States and this nation, is, by
our constitution and laws, vested in the
government of the United States.
Worcester, 31 U.S. at 561.
208. That another important facet in the unique status Native Americans hold in our jurisprudence
is that the distinction Indians and tribes enjoy
is not based upon race. Rather, as set forth in
the Morton v. Mancari 417 U.S. 535 (1974) decision the United States Supreme Court unanimously established that the Constitution of the
United States gives Congress the power to provide “special treatment” to Indians based on
membership in a quasi-sovereign Indian tribe.
Morton, 417 U.S. at 553-55. Therefore, it is the
political relationship between the United States
and Indian tribes expressly established in the
United States Constitution which authorizes

122a

209.

210.
211.

212.

213.

214.

unique financial, medical, educational, residential and employment benefits not otherwise afforded to non-Indians.
That after the final group of Cherokee who
were forced to leave for the Indian Territory in
December 1838 embarked, General Winfield
Scott decided that capture of the roughly 1000
Cherokee who refused to leave Western North
Carolina would be difficult. He agreed to allow
governmental officials to handle each individual instead of the United States Army.
Therefore, the “modern” story of the Eastern
Band of Cherokee begins in 1838.
That during these times the Cherokee where
benefited by the efforts of William Holland
Thomas, a non-Indian who had been adopted by
the Cherokee Chief Drowning Bear. Bridgers,
at 1089-90.
That William Thomas during this period used
money from various sources to purchase land in
his own name for the use of the Cherokee. That
these purchases made by William Thomas during this period formed the corpus of land that
subsequently became the Qualla Boundary.
Bridgers, at 1090.
That in one of the first legislative acts by North
Carolina in 1866, the General Assembly determined that the State had no objection to the
Cherokees residing in North Carolina. Act of
Feb. 9, 1866, ch. 54, Section 1, 1866 N.C. Pub.
Laws, Special Sess., 120.
That the North Carolina Supreme Court decided in 1869 that the Cherokee Indians could own
land since there existed nothing in the North

123a

215.

216.
217.

218.

219.

Carolina Constitution or statutes prohibiting
ownership. Colvard v. Monroe, 63 N.C. 288
(1869).
That in 1870 the North Carolina Supreme
Court then established that the criminal laws
of North Carolina applied to Cherokee Indians
when they decided State v. Ta-cha-na-tah, 64
N.C. 614 (1870).
That in 1924 Indians became citizens of the
United States. 68 P.L. 175; 43 Stat. 253 (1924).
[See Attachment “L”]
That following the granting of United States
citizenship to Indians, Congress acted specifically in response to the issues then confronted
by the Cherokee Indians located in North Carolina by Congressional legislation subsequently
signed into law by President Coolidge. 68 P.L.
191; 43 Stat. 376 (1924). [See Attachment “M”]
That federal Indian policy was fundamentally
altered by the administration of Franklin Roosevelt when in response to the sobering failures
of the “allotment” policy begun in 1887, Congress passed the Indian Reorganization Act of
1934. The purpose of the Indian Reorganization
Act was to assist Tribes to develop Constitutions and organize their individual governments which would then in turn promote economic, educational and culture preservation
and development. Act of June 18, 1934, Pub. L.
No. 73-383, ch. 576, 48 Stat. 984 (1934).
That the policy direction of the Federal Government again altered course following World
War II when it was decided that Tribes and
their unique governments should be finally

124a

220.

221.

222.

223.

terminated. Congress determined that by terminating tribes and thereby ushering individual Indians into society the then perceived 'barriers' to prosperity believed to exist in the lives
of Native Americans would be finally removed.
This “Termination” policy was begun in 1958
with the passage of the Federal Indian Law of
1958. This “Termination” policy has come to
commonly be referred to as Public Law 280. Act
of August 15, 1953, Pub. L. No. 83-280, ch. 505,
67 Stat. 588 (1958).
That Public Law 280 sought among other matters to address the emerging issues of jurisdiction which were slowly giving rise in an increasing number of cases where the interplay
between Tribes and States were conflicting.
Five states were given jurisdiction over Indians
on Indian lands: California, Minnesota, Nebraska, Oregon and Wisconsin. 67 Stat. 588
(1958).
That since 1958 additional states have assumed
criminal jurisdiction pursuant to the parameters of Public Law 280. However, North Carolina has neither sought nor obtained criminal jurisdiction over Indians on the Qualla Boundary
pursuant to Public Law 280.
That from most all actors involved in Indian
Affairs it was conceded in the mid 1960's that
the “Termination” policy was an abysmal failure in nearly every single respect.
That in 1968 the Johnson Administration
sought to replace the “Termination” policy with
one of “self-determination.” 114 Cong. Rec. 5394
(1968).

125a
224. That at nearly the same time Congress began
to re-establish its support for Tribes and Tribal
governments when it passed the Indian Civil
Rights Act. This Act sponsored by Senator Sam
J. Ervin, Jr., of North Carolina ushered in the
modem era of self-determination which is the
policy in effect today in “Indian country”. Act of
April 11, 1968, Pub. L. No. 90-284, 82 Stat. 78
(1968).
B. Criminal Jurisdiction
1. Criminal Jurisdiction in “Indian country”
225. That as is necessary for purposes of this Order
“Indian country” was first defined in the Indian
Intercourse Act of June 30, 1834, 4 Stat. 729
(1834) which was subsequently repealed. Over
the changing decades the definition of what
constituted Indian land was in a state of flux.
The definition of “Indian country” once again
appeared in 1948 when it was included in the
United States Code at 18 U.S.C. §1151. As discussed hereinabove, the lands purchased by
William Thomas and now held in trust by the
United States for the Eastern Band of Cherokee Indians form the corpus of the Qualla
Boundary.
226. That the Fairfield Inn parking lot and sidewalk
where the homicide occurred is “Indian country” as defined by 18 U.S.C. §1151. That the
parties as their stipulation number two agree
to this fact.
227. That the federal courts have criminal jurisdiction in “Indian country” through the Major
Crimes Act as enacted by Congress. 18 U.S.C.

126a
§1153 (2013). 7
228. That the Major Crimes Act was passed by Congress in reaction to the Supreme Court decision
in Ex parte Crow Dog, 109 U.S. 556 (1883). Following the murder of Spotted Tail by Crow Dog
the Supreme Court decided the federal courts
lacked jurisdiction to punish crimes between
Indians on reservations. In response Congress
enumerated certain crimes which now comprise
the Major Crimes Act. Federal courts now have
jurisdiction over Indian on Indian crime when
one of the crimes delineated in the Major
Crimes Act is alleged.
229. That the validity of the Major Crimes Act was
upheld in US v. Kagama, 118 U.S. 375 (1886)
where the Supreme Court determined the passage of this legislation was a valid exercise of
7

18 USCS § 1153 (2013)

§ 1153. Offenses committed within “Indian country”

(a) Any Indian who commits against the person or property of
another Indian or other person any of the following offenses,
namely, murder, manslaughter, kidnapping, maiming, a felony
under chapter 109A [18 USCS §§2241 et seq], incest, a felony
assault under section 113 [18 USCS §113], an assault against
an individual who has not attained the age of 16 years, felony
child abuse or neglect, arson, burglary, robbery, and a felony
under section 661 of this title [18 USCS §661] within the “Indian country”, shall be subject to the same law and penalties as
all other persons committing any of the above offenses, within
the exclusive jurisdiction of the United States.
(b) Any offense referred to in subsection (a) of this section that
is not defined and punished by Federal law in force within the
exclusive jurisdiction of the United States shall be defined and
punished in accordance with the laws of the State in which
such offense was committed as are in force at the time of such
offense.

127a

230.

231.

232.

233.

congressional plenary power over Indian tribes
and Indians.
That the Assimilative Crimes Act through the
General Crimes Act confers federal court jurisdiction over crimes where the defendant and
victim are ‘interracial.’ Where the defendant is
a non-Indian and the victim an Indian federal
court jurisdiction exists. Donnelly v. US, 228
U.S. 243, 272 (1913). Likewise, where the defendant is an Indian and the victim a nonIndian federal court jurisdiction exists. US v.
John, 587 F.2d 683, 687 (5th Cir. 1979).
That a state continues to enjoy jurisdiction over
an Indian when he is outside of “Indian country.” Mescalero Apache Tribe v. Jones, 411 U.S.
145 (1973).
That when the defendant and victim are both
non-Indian jurisdiction resides in the court system of the state wherein the “Indian country” is
located. US v. McBratney, 104 U.S. 621 (1881).
That through over two hundred years of prior
judicial precedent and Congressional legislation
there can be no disagreement that “[o]nce the
area is determined to be “Indian country”,
whether the federal courts have jurisdiction
under [the Major Crimes Act or the Assimilative Crimes Act] hinges on the race and/or tribal membership of the victim and defendant.
Sentelle at 346.

128a
2. Criminal Jurisdiction of North Carolina on
the Qualla Boundary 8
234. That the first exercise of criminal jurisdiction
over Cherokee Indians by the State of North
Carolina occurred in 1870 in State v. Ta-chana-tah, 64 N.C. 614 (1870). North Carolina persisted in asserting criminal jurisdiction in a
long line of cases continuing with State v. Wolf,
145 N.C. 440 (1907).
235. That in 1931 in United States v. Wright, 53
F.2d 300, 307 (4th Cir. 1931) the court opined in
dicta that “no act of Congress in [the Cherokees] behalf would be valid which interfered
with the exercise of the police power of the
state.” The Wright decision seems to ignore the
1924 Congressional enactment on behalf of the
Eastern Band of Cherokee. Moreover the
Fourth Circuit relied on this dicta from the
Wright decision in deciding United States v.
Hornbuckle, 422 F.2d 391 (4th Cir. 1970). Using
this questionable pronouncement from Wright
and ignoring the Congressional Act of 1924, 18
U.S.C. §1153, and the long line of cases from Ex
parte Crow Dog to the present, the Hornbuckle
court decided that North Carolina exercised
concurrent criminal jurisdiction over the Cherokees on the Cherokee reservation. 422 F. 2d
391 (4th Cir. 1970).
That for a more detailed and insightful, albeit dated, discussion of criminal Jurisdiction on the Qualla Boundary the undersigned would refer the reader to “Criminal Jurisdiction on
the North Carolina Cherokee Indian Reservation-A Tangle of
Race and History” 24 Wake Forest L. Rev. 335 (1989) by The
Honorable David B. Sentelle and Melanie T. Morris.

8

129a
236. That notwithstanding these Fourth Circuit decisions, the dicta expressed in Wright was correctly muted in the Supreme Court decision of
United States v. John, 437 U.S. 634 (1978). The
holding in John established that the creation of
the Choctaw reservation, which was nearly
identical to the creation of the Cherokee reservation, conferred federal jurisdiction over the
Mississippi Choctaw. Subsequently the Fourth
Circuit applied the John decision and drawing
on the similar history shared by the Eastern
Cherokee and the Mississippi Band of Choctaws determined the Qualla Boundary located
in North Carolina was “Indian country.” The
landmark decision of U.S. v. Welch, 822 F.2d
460 (4th Cir. 1987) established the Qualla
Boundary as “Indian country” thereby erasing
any lingering uncertainty on this question.
237. That based upon the John and Welch cases it is
clear now that North Carolina has no jurisdiction over Indian on Indian crimes covered by
the Major Crimes Act. Sentelle at 634. Therefore, based upon the Welch decision prior North
Carolina precedents asserting criminal jurisdiction by the state over Indians on the Qualla
Boundary must be examined closely. 9
Prior to the Welch decision, North Carolina asserted jurisdiction over Indians charged with crimes on the Qualla Boundary.
Cases such as State v. Ta-cha-na-tah, 64 N.C. 614 (1870), State
v. Wolf, 145 N.C. 440 (1907), State v. McAlhaney, 220 N.C. 387
(1941), and State v. Dugan, 52 N.C. App. 136 (1981), all hold
that North Carolina has jurisdiction over Indians for offenses
committed within the boundary of the Cherokee reservation. In
light of the Fourth Circuit decision in Welch, more recent decisions by the North Carolina appellant courts in Carden v. Owle
9

130a
238. That under the holding in United States v.
McBratney, 104 U.S. 621 (1881) jurisdiction for
crimes by one non-Indian against another nonIndian rests with the states. The decision in
McBratney is commonly referred to as the
McBratney rule.
239. That the McBratney rule was affirmed subsequently by the Supreme Court when it held
states had jurisdiction over offenses committed
on the reservation between non-Indians. Williams v. United States, 327 U.S. 711, 714
(1946).
240. That in a schematic form jurisdictional analysis
is best encapsulated by Attachment “N”.
III.
A. Analysis of Current Criminal
Jurisdictional Law
241. That deciding who is an “Indian” has proven to
be a difficult question. In fact upon closer examination when one looks to legal precedent
the question quickly devolves into a multifaceted inquiry requiring examination into factual
areas not normally considered in our courts.
242. That this ambiguity is forefront when on its
face the Major Crimes Act does not define who
is an Indian. 18 USC §1153. Likewise, the Indian Civil Rights Act does not define who is an
Indian. 25 USC §1301(4).
Construction, 720 S.E.2d 825 (2012) citing Jackson County v.
Swayney, 319 N.C. 52 (1987), sovereignty analysis, infringement on Cherokee self-governance, and the existence today of
the Cherokee Tribal Court which did not exist in 1981, it seem
likely these decisions now rest upon unstable footing.

131a
243. That one of the earliest cases to address this
question was US v. Rogers, 45 U.S. 567 (1846).
From Rogers arose the generally accepted analysis applied today when making an inquiry into
whether an individual is defined under the law
as an “Indian.” Beginning in 1846 through the
present, the test as proscribed in Rogers asks
whether the defendant (1) has some Indian
blood, and (2) is recognized as an Indian by a
tribe or the federal government or both. Rogers,
at 572-573.
244. That the Fourth Circuit Court of Appeals
whilst not applying the Rogers test in full did
address this similar issue in U.S. v. Lossiah,
537 F.2d 1250 (1976). During trial in Bryson
City, North Carolina the government introduced into evidence a certificate of enrollment
from the enrollment office of the Eastern Band
of Cherokee Indians. The Court held that the
certificate of enrollment containing the enrollment number and the blood quantum of Mr.
Lossiah was adequate proof he was an Indian
as required under the Major Crimes Act. Lossiah at 1251. (See also U.S. v. Antelope, 430 U.S.
641, 646-47 (1977), wherein the Court determined that proof a defendant is an enrolled
member of a federally recognized Indian tribe is
sufficient to confer federal jurisdiction under 18
U.S.C. §1153.)
245. That while not specifically mobilized by the
Fourth Circuit, the Rogers test has repeatedly
been used and applied in four different federal
court circuits. U.S. v. Torres, 733 F.2d 449, 456
(7th Cir. 1984); U.S. v. Lawrence, 51 F.3d 150,
152 (8th Cir. 1995); U.S. v. Stymiest, 581 F.3d

132a
759, 762 (8th Cir. 2009); U.S. v. Keys, 103 F.3d
758, 761 (9th Cir. 1996); and U.S. v. Prentiss,
273 F.3d 1277, 1280 (10th Cir. 2001).
246. That before a person is determined to be an Indian it is necessary that both prongs of the
Rogers test are sufficiently answered in the affirmative.
247. That an application of this test is found in the
jury instruction used by the trial court in U.S.
v. Torres, 733 F.2d 449,456 (7th Cir. 1984). In
this case the judge instructed the jury:
To be considered an Indian, a person must
have some degree of lndian blood, and
must be recognized as an Indian. In considering whether a person is recognized as
an Indian, you may consider such factors,
whether a person is recognized as an Indian by an Indian tribe, or society of Indians. Whether a person is recognized as an
Indian by the federal government, whether a person resides on an Indian reservation, and whether a person holds himself
out as an Indian. It is not necessary that
all of these factors be present, rather you
as jurors must consider the totality of circumstances in determining as a factual
matter whether each defendant is an Indian.
Torres, 733 F.2d at 456.
248. That the first prong of the Rogers test discusses
blood quantum. But blood quantum alone is not
the sole determinative factor in this inquiry. As
discussed hereinabove, blood quantum while it
may appear facially to be a race determinative

133a

249.

250.

251.

252.

factor is rather one based on ancestry and as
discussed in U.S. v. Antelope, 430 U.S. 641, 646
(1977), a determination derived not from a racial classification but rather a recognition of the
special status afforded to a formerly sovereign
people by the government of the United States.
That the second prong of the Rogers analysis
departs from a narrow examination of an individual's relations to his family ancestry and in
turn examines various factors in deciding
whether the person at issue is recognized as an
Indian by the tribe or the federal government.
This inquiry was best delineated by Judge Porter in his opinion in St. Cloud v. U.S., 702
F.Supp. 1456 (1988).
That in St. Cloud four separate and distinct
factors were proscribed in an insightful effort to
better elucidate the second prong of the Rogers
test in determining what constitutes sufficient
non-racial recognition as an Indian. St.Cloud,
702 F.Supp. at 1461.
That the four St. Cloud factors are: 1) enrollment in a tribe; 2) government recognition through receipt of assistance reserved
only to Indians; 3) enjoying benefits of tribal
affiliation; and 4) social recognition as an Indian. Id. at 1461-62.
That since the St. Cloud decision in 1988,
courts throughout the United States have
continued to use and further refine these four
factors. In 2009 the Ninth Circuit Court of
Appeals in U.S. v. Cruz, citing its prior decision in U.S. v. Bruce wrote
In Bruce we outlined four factors that

134a
govern the second prong; those four factors are, “in declining order of importance, evidence of the following: l)
tribal enrollment; 2) government recognition formally and informally through
receipt of assistance reserved only to Indians; 3) enjoyment of the benefits of
tribal affiliation; and 4) social recognition as an Indian through residence on a
reservation and participation in Indian
social life.” U.S. v. Bruce, 394 F.3d 1215,
1224 (9th Cir. 2005) (quoting United
States v. Lawrence, 51 F.3d 150, 152
(8th Cir. 1995)); accord United States v.
Ramirez, 537 F.3d 1075, 1082 (9th Cir.
2008).
U.S. v. Cruz, 554 F.3d 840, 846 (9th Cir. 2009)
253. That following the mandate established in
Bruce the four factors under the St. Cloud
analysis are to be considered in declining order of importance.
B. Application of Current Jurisprudence
to the Case at Bar
254. That to determine whether the Defendant is
Indian as defined by the Major Crimes Act,
the undersigned must apply the Rogers test
using the four factors under the second prong
of Rogers as established in the St. Cloud decision in declining order of importance.
255. That Defendant claims he is an Indian as defined by the Major Crimes Act and accordingly criminal jurisdiction over the Defendant
lies in federal court.

135a
256. That the Eastern Band of Cherokee Indians
is a federally recognized Indian Tribe.
257. That looking at the first prong under the
Rogers test, Defendant is not an enrolled
member of the Eastern Band of Cherokee Indians. The Defendant is also not an enrolled
member of any other federally recognized Indian tribe and claims no Indian blood from
any other tribe other than the Eastern Cherokee.
258. That Defendant has one parent with a blood
quantum of 11/128 and tribal enrollment in a
federally recognized tribe. Accordingly, Defendant would under the first prong of the
Rogers be 11/256 Eastern Cherokee.
259. That the Defendant has, barely, satisfied the
first prong under the Rogers test in that he
has some Indian blood. The modest degree of
Indian blood for the Defendant is 11/256 or
4.29%.
260. That the analysis of the Court must next tum
to the second prong of the Rogers test. In so
doing the undersigned engages in this analysis using the four St. Cloud non-racial factors
in declining order of importance.
261. That Court finds and the Defendant stipulates under the first and most important St.
Cloud factor he is not an enrolled member of
the Eastern Band of Cherokee or of any other
federally recognized Indian tribe. Moreover,
it is undisputed Defendant is neither now nor
will he ever be eligible for enrollment in the
Eastern Band of Cherokee having an Eastern
Cherokee blood quantum of 11/256.

136a
262. That turning next to the second factor under
the St. Cloud analysis, the primary assertion
upon which Defendant argues he is Indian
rests on the fact he is a First Descendent of
the Eastern Band of Cherokee Indians. This
position advanced by Defendant is not frivolous for the facts of each individual with ties
to any given Indian tribe vary markedly from
person to person. Upon a thorough examination of the evidence and circumstances specific to Defendant the facts clearly establish:
a. The Defendant was not born on the
Cherokee Reservation.
b. The Defendant was not born near the
Cherokee Reservation.
c. The Defendant never enjoyed the benefits of a possessory interest by renting or
leasing an interest in tribal lands.
d. The Defendant never inherited a possessory interest in tribal lands.
e. The Defendant never voted in tribal
elections. In fact, because he is not an
enrolled member of the Eastern Band
the Defendant is ineligible to vote in all
tribal elections.
f. That Defendant has never held an elected tribal office. Likewise, because Defendant is not an enrolled member of the
Eastern Band of Cherokee the Defendant is ineligible to hold elected tribal office.
g. The Defendant never served on a tribal
jury in the Cherokee Tribal Court (or its

137a
h.
i.

j.

k.

1.
m.

n.
o.

predecessor the CFR Court).
The Defendant was never a party in either a civil or criminal matter in the
Cherokee Tribal Court.
The Defendant never received any payments for settlements owed by the federal government to enrolled members of
the Eastern Band of Cherokee.
The Defendant is not eligible to receive
the biannual distribution of gaming proceeds shared by all enrolled members of
the Eastern Band of Cherokee.
The Defendant never sought or received
health care from the many public health
programs administered by the Eastern
Band of Cherokee and enjoyed by tribal
members, with the exception of acute
care at the CIH.
The Defendant was never employed by
the Eastern Cherokee government or
any of its enterprises.
The Defendant does enjoy First Descendant status but never took steps to
formalize his rights. Moreover, Defendant never applied for or received the
corresponding certification from the
tribal enrollment office establishing his
First Descendant status.
The Defendant has no tribal identification card.
The Defendant attended Cherokee
Schools but this same school system is
open to non-Indian students.

138a
p. The Defendant never applied for or received financial assistance available to
First Descendants from the Eastern
Band of Cherokee for attendance at any
post-secondary educational institutions.
q. The Defendant never hunted or fished
on the Qualla Boundary.
r. The Defendant never participated in Indian religious ceremonies, cultural festivals or dance competitions. No evidence
was presented that Defendant attended
the annual fall festival which is the single most important social event in the
life of the Cherokee community.
s. The Defendant neither presented evidence of nor demonstrated an aptitude
for arts and crafts unique to the Cherokee such as wood carving or basket
weaving.
t. The Defendant is not fluent in the Cherokee language.
u. The Defendant presented no evidence of
participation in any Indian medicine
ceremonies.
v. The Defendant when arrested for these
offenses neither informed any CIPD officer nor any Jackson County magistrate
or other official that he was Indian.
Likewise, at the time of arrest Defendant never presented any documentation
identifying Defendant as Indian.
263. As late as August 11, 2011 and May 7, 2012,
Defendant identified himself as white/

139a
Caucasian in North Carolina probation documents. Any attempt to attribute his actions
of self-identification as an error made by his
mother is unpersuasive since on these aforementioned dates the Defendant was over
thirty years of age. Moreover, it must also be
noted in addition to claiming at certain times
to be white/Caucasian and then at other
times to be Indian there is the recent and
pronounced variation in his social security
number. As found hereinabove, at one point
in time on November 30, 2012, Defendant asserted his social security number was 261-142669 while at a later time that day presented
that his social security number was 261-304623. Thus, Defendant used two completely
different social security numbers on the same
day. Such extraordinary variations in the
identity one presents of himself is exceedingly unusual which therefore necessarily calls
into question the veracity of Defendant.
264. That under the second St. Cloud factor the
only evidence of government recognition of
the Defendant as an Indian is the receipt of
medical services at the CIH. The Federal
government through the Indian Health Service provide benefits reserved only to Indians
arising from the unique trust relationship
with the tribes. Also, the government of the
Eastern Band of Cherokee provides additional health benefits to the enrolled members.
The only evidence Defendant presents of the
receipt of health services available only to
Indians is medical care at the CIH more than
two decades ago as documented in his medi-

140a
cal chart. While it is true that he did receive
care from the CIH it is likewise true he
sought acute care, this care was when he was
a minor and he was taken for treatment by
his mother. Since becoming an adult he has
never sought further medical care from the
providers in Cherokee. Moreover, the last
time he sought care from the CIH was over
23 years ago.
265. That regarding education Defendant urges
the undersigned to afford special recognition
to his brief attendance in the Cherokee tribal
school system. Yet, since the Cherokee tribal
school system is open to children whether Indian or non­Indian to consider this as satisfying the second factor under the St. Cloud test
would be erroneous. C.C. §115-2.
266. That except for the five visits to the CIH,
there is no other evidence Defendant received
any services or assistance reserved only to
individuals recognized as Indian under the
second St. Cloud factor.
267. That under the third St. Cloud factor the
Court must examine how Defendant has benefited from his affiliation with the Eastern
Band of Cherokee. The Defendant suggests
he has satisfied the third factor under the St.
Cloud test in that Cherokee law affords special benefits to First Descendants. To be sure
the Cherokee Code as developed over time
since the ratification of the 1986 Charter and
Governing Document does afford special benefits and opportunities to First Descendants.
Whilst it is accurate the Cherokee Code is

141a
replete with special provisions for First Descendants in areas of real property, education, health care, inheritance, employment
and access to the Tribal Court, save however
for use of medical services a quarter of a century ago Defendant has not demonstrated
use of any of his rights as a First Descendant
of the Eastern Band of Cherokee.
268. That as previously stated the third St. Cloud
factor is ‘enjoyment’ of the benefits of tribal
affiliation. Enjoyment connotes active and affirmative use. Such is not the case with Defendant. Defendant directs the undersigned
to no positive, active and confirmatory use of
the special benefits afforded to First Descendants. Defendant has never ‘enjoyed’
these opportunities which were made available for individuals similarly situated who enjoy close family ties to the Cherokee tribe.
Rather, Defendant merely presents the Cherokee Code and asks the undersigned to substitute opportunity for action. To ascribe enjoyment of benefits where none occurred
would be tantamount to finding facts where
none exist.
269. That under the fourth St. Cloud factor the
Court must determine if Defendant is recognized socially as an Indian. When an individual holds themselves out as an Indian, participates in the Native American community
and has some Indian blood, courts have under particular facts and circumstances declared such individuals who are otherwise
not enrolled members of a federally recognized tribe to be “Indian” as defined by law.

142a
U.S. v. Stymiest, 581 F.3d 759 (8th Cir. 2009).
Conversely, where there exists little affiliation with a tribe and use of tribal benefits,
courts have declined to identify these individuals as “Indians.”U.S. v. Cruz, 554 F.3d
840 (9th Cir. 2009) and U.S. v. Maggi, 598
F.3d 1073 (9th Cir. 2010).
270. That while there are no opinions from the
Fourth Circuit Court of Appeals, the opinions
of the other Federal Circuits coupled with decisions from the Cherokee Tribal Court assist
the undersigned in drawing important and
salient distinctions which are instructive in
the case under consideration. In Eastern
Band v. Lambert, 2 Cher. Rep. 62 (2003), the
Tribal Court was called upon to address
whether the Tribal Court has jurisdiction
over First Descendants. The facts of Lambert
are clearly distinguishable from the situation
regarding the Defendant. In Lambert, Ms.
Lambert was a First Descendant just as is
Mr. Nobles. Ms. Lambert presented testimony she was involved in the Cherokee community, availed herself of the opportunities open
to First Descendants, and had in a civil matter “availed herself of the [Cherokee Tribal]
Court's civil jurisdiction in that she is the
plaintiff in the case of Sarella C. Lambert v.
Calvin James, CV-99- 566...” Lambert at 63.
The civil case commenced in 1999 some four
years prior to the criminal action.
271. That contrary to the actions of a First Descendant described in Lambert, where Ms.
Lambert lived in the Cherokee community
with ties at least beginning in 1999 and

143a
sought redress of her wrongs in the Cherokee
Tribal Court, the Defendant simply has no
ties to the Qualla Boundary. That under the
fourth St.Cloud factor Defendant points to no
substantive involvement in the fabric of the
Cherokee Indian community at any time. The
Defendant did reside and work on or near the
Cherokee reservation for about 14 months
when his probation was transferred from
Florida to North Carolina. Yet in these 14
months near Cherokee the record is devoid of
any social involvement in the Cherokee
community by the Defendant.
272. That Defendant has simply presented no evidence of social recognition as an Indian and
participation in the Indian social life of the
Qualla Boundary.
273. That of the four St. Cloud factors, Defendant
has failed to establish any evidence in support of tribal enrollment, enjoyment of any
tribal benefits or any recognition as an Indian by the Indian community. While there is
evidence of use of benefits available only to
Indians with treatment at the CIH the evidence must be viewed through the prism of
receiving acute medical treatment as child
where as a child he took no active involvement in the decision for treatment and with
his last visit being more than 23 years ago.
274. That in stark contrast to the case of Lambert,
when the unique, specific and particular facts
regarding George Lee Nobles are closely
scrutinized his claim of being Indian must
fail. To conclude Defendant is an Indian be-

144a
cause of his modest blood quantum, the fact
he was treated at the CIH on five occasions
23 years ago and then upon his release in
2011 from prison in Florida resided and
worked on or near the Qualla Boundary for
14 months as urged by the Defendant would
simply be contrary to the law applicable in
such cases, thereby affording to Defendant an
unreasonably broad application of the Rogers
and St. Cloud tests. Accordingly, the undersigned declines to adopt this expansive interpretation of the law as urged by Defendant.
275. That accordingly after balancing all the evidence presented to the undersigned using the
Rogers test and applying the St. Cloud factors in declining order of importance, that
while Defendant does have, barely, a small
degree of Indian blood he is not an enrolled
member of the Eastern Cherokee, never benefited from his special status as a First Descendant and is not recognized as an Indian
by the Eastern Band of Cherokee Indians,
any other federally recognized Indian tribe or
the federal government. Therefore, the Defendant for purposes of this motion to dismiss
is not an Indian.
276. That the undersigned has considered the totality of the circumstances in determining
whether the Defendant is an Indian and has
considered all the evidence in light most favorable to the Defendant.
277. That because Defendant brings a motion to
dismiss challenging the subject matter of the
State, the burden of proof is on the State to

145a
prove beyond a reasonable doubt that the
crime with which Defendant is charged occurred in North Carolina. State v. Batdorf,
293 N.C. 486, 494 (1977).
278. That having considered all of the evidence
and stipulations, and after careful, thorough
and exhaustive review of Federal, North Carolina and Cherokee statutes and prior court
decisions, the Court determines that the
State has proven beyond a reasonable doubt
that the crime occurred in North Carolina,
Defendant is not an Indian as contemplated
under the 18 U.S.C. §1153, and under the
McBratney rule jurisdiction is in the North
Carolina General Courts of Justice.
BASED UPON THE FOREGOING FINDINGS
OF FACT THE COURT MAKES THE FOLLOWING CONCLUSIONS OF LAW:
1. That the Court has jurisdiction over the subject
matter and persons.
2. That the homicide committed on September 30,
2012, occurred on the Cherokee Indian reservation, also referred to as the Qualla Boundary,
which is “Indian country” as defined by law.
3. That the victim, Barbra Wells Preidt, was white
or Caucasian.
4. That the Defendant, George Lee Nobles, is
white or Caucasian.
5. That pursuant to the rule established in US v.
McBratney, 104 U.S. 621 (1881) jurisdiction for
a crime committed by a white defendant upon a
white victim occurring in “Indian country” is in
the court of the state wherein the crime oc-

146a
curred.
6. That jurisdiction over the Defendant, George
Lee Nobles, for the trial of the offenses of murder, robbery with a dangerous weapon and possession of a firearm by a previously convicted
felon which are alleged by the state of North
Carolina to have occurred on September 30,
2012, is in the Superior Court Division of the
North Carolina General Courts of Justice and
venue is in Jackson County.
BASED UPON THE FOREGOING FINDINGS
OF FACT AND CONCLUSIONS OF LAW THE
COURT HEREBY ORDERS, ADJUDGES AND
DECREES:
1. That the Motion to Dismiss for lack of jurisdiction filed by Defendant, George Lee Nobles,
shall be, and hereby is, DENIED.
2. That venue for the trial of these offense shall be
in the Jackson County Superior Court.
Entered this the 26th day of November, 2013.
Signed this the 26th day of November, 2013.
/s/ Honorable Bradley B. Letts
Senior Resident Superior Court Judge
Judicial District 30B

